<html>
<title> - ENSURING AN EFFICIENT AND EFFECTIVE DIPLOMATIC SECURITY TRAINING FACILITY FOR THE TWENTY-FIRST CENTURY</title>
<body><pre>[Senate Hearing 114-818]
[From the U.S. Government Publishing Office]


                                                   S. Hrg. 114-818

   ENSURING AN EFFICIENT AND EFFECTIVE DIPLOMATIC SECURITY TRAINING 
                 FACILITY FOR THE TWENTY-FIRST CENTURY

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON STATE DEPARTMENT AND
                    USAID MANAGEMENT, INTERNATIONAL
                       OPERATIONS, AND BILATERAL
                       INTERNATIONAL DEVELOPMENT

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 8, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: https://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-993 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------



                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                 Lester Munson, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                         ------------          

           SUBCOMMITTEE ON STATE DEPARTMENT AND USAID        
           MANAGEMENT, INTERNATIONAL OPERATIONS, AND        
              BILATERAL INTERNATIONAL DEVELOPMENT        

                DAVID PERDUE, Georgia, Chairman        

JAMES E. RISCH, Idaho                TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              BARBARA BOXER, California
RON JOHNSON, Wisconsin               CHRISTOPHER A. COONS, Delaware
RAND PAUL, Kentucky                  CHRISTOPHER MURPHY, Connecticut

                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. David A. Perdue, U.S. Senator From Georgia..................     1
Hon. Tim Kaine, U.S. Senator From Virginia.......................     4
Hon. Gregory Starr, Assistant Secretary, Bureau of Diplomatic 
  Security, U.S. Department of State, Washington, DC.............     6
    Prepared Statement...........................................     7
Connie L. Patrick, Director, Federal Law Enforcement Training 
  Centers, U.S. Department of Homeland Security, Glynco, GA......     9
    Prepared Statement...........................................    10
Michael Courts, Director, International Affairs and Trade Team, 
  U.S.
  Government Accountability Office, Washington, DC...............    12
    Prepared Statement...........................................    14

              Additional Material Submitted for the Record

Written Statement of Earl L. ``Buddy'' Carter, Member of 
  Congress, First District of Georgia, Submitted by Senator David 
  Perdue.........................................................    32
Responses of Gregory Starr to Questions Submitted by Senator 
  David Perdue on Behalf of Representative Buddy Carter..........    34
Responses of Michael Courts to Questions Submitted by Senator 
  David Perdue...................................................    37
Responses of Michael Courts to Questions Submitted by Senator 
  David Perdue on Behalf of Representative Buddy Carter..........    40
Responses of Michael Courts to Questions Submitted by Senator Tim 
  Kaine..........................................................    41
Letter Submitted for the Record by Senator Tim Kaine.............    42
Letter Submitted for the Record by Senator David Perdue..........    43

                                 (iii)

  

 
   ENSURING AN EFFICIENT AND EFFECTIVE DIPLOMATIC SECURITY TRAINING 
                 FACILITY FOR THE TWENTY-FIRST CENTURY

                              ----------                              


                       THURSDAY, OCTOBER 8, 2015

        U.S. Senate, Subcommittee on State Department and 
            USAID Management, International Operations, and 
            Bilateral International Development, Committee 
            on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. David A. 
Perdue (chairman of the subcommittee) presiding.
    Present: Senators Perdue, Isakson, Kaine, Cardin, and 
Murphy.

          OPENING STATEMENT OF HON. DAVID A. PERDUE, 
                   U.S. SENATOR FROM GEORGIA

    Senator Perdue. Good afternoon. The committee will come to 
order.
    Thank you for being here, and I appreciate my colleagues 
being here for this hearing.
    This hearing of the Subcommittee on State Department and 
USAID oversight is entitled ``Ensuring an Efficient and 
Effective Diplomatic Security Training Facility for the Twenty-
First Century.''
    I would like to begin by welcoming our witnesses today: 
Assistant Secretary Greg Starr, Director Connie Patrick, and 
Mr. Michael Courts. Thank you so much. I appreciate your time 
and energy today. I know you have been laboring over this 
decision for a long time, and we hope to bring some clarity to 
that today as we move in the next few months, it sounds like, 
toward a final adjudication in terms of what is best for our 
personnel and the taxpayers.
    We are here today to discuss the GAO's report that we have 
all seen that was requested by Congress to examine two options 
for the State Department's new consolidated diplomatic security 
training facility.
    Before that, I thought I might give a little background. 
The tragic events that transpired in Benghazi, Libya, on 
September 11, 2012, remind us that we need to prepare our 
Foreign Service officers for the worst and prepare our 
diplomatic security agents to take on any challenge while 
protecting sovereign U.S. soil and valuable American lives.
    Our civil servants overseas are operating in an 
increasingly hostile world. Just this February, State had to 
evacuate the U.S. Embassy in Sanaa due to increased hostilities 
there. And there have been others. This is ongoing every month 
it seems. Our State Department personnel are, indeed, in very 
tough situations around the world, and we owe them the utmost 
in protection.
    Indeed, protecting Americans abroad is paramount. Our 
Nation must ensure that Americans sent to serve our Nation 
overseas are safe and have the skills they need to protect 
themselves from any threat.
    As chairman of the State Department Management Subcommittee 
and as a member of the Budget Committee, I am also responsible 
for the accountable spending of taxpayer dollars, as we all 
are. Today we are here to look at the process for building this 
new diplomatic security facility.
    For those of you who are not familiar with the history, I 
thought I might just go through just a little bit of 
background.
    State's Bureau of Diplomatic Security--DS I will refer to 
as we go through this--identified the need to consolidate 
training functions as early as 1993. State leases and contracts 
today--there are 11 facilities to provide comprehensive high-
threat and hard skills training, and then there are eight other 
facilities that provide soft skills training, which a 2011 GAO 
report has found to be insufficient, ineffective, and changes 
needed to happen. So this has been identified for some period 
of time.
    In May 2008, State came up with the concept of the Foreign 
Affairs Security Training Center, or FASTC, as we will refer to 
it in the rest of the conversation today. This program was 
authorized and appropriated in 2009 when Congress set aside $70 
million to identify and procure a permanent site for FASTC. 
Over 2 years, State and GSA studied 70 sites and determined 
that Fort Pickett was their best option in 2010 in Virginia.
    In December 2012, State put forth a full master plan for 
FASTC with their price tag of under $1 billion, $900 million 
plus.
    In 2013, OMB directed State to consider as an option 
augmenting an existing facility like the Federal Law 
Enforcement Training Center, or FLETC, in Brunswick, GA, which 
currently trains over 90 law enforcement and other Federal and 
local agencies with hard and soft skills training.
    Let me say this before we go any further. If this hearing 
does not do anything else, it confirms that God has a sense of 
humor, that the two facilities we are now looking at as the 
final options--one is in Virginia, and our ranking member, 
Senator Tim Kaine, represents Virginia. And the other facility 
is in Georgia, and I represent Georgia, along with my senior 
Senator Johnny Isakson here.
    But I want to assure, for the record, everyone here that we 
are all about the same objective, and that is this. We want to 
make sure that our personnel are adequately trained to meet the 
challenges and dangers abroad. That is the objective function.
    And the second thing that we are here to do as part of 
oversight of the State Department is make sure that we spend 
taxpayer money appropriately. That is it. There is nothing 
parochial going on here, and I applaud Senator Kaine for the 
way he has handled this and Senator Isakson in the past as 
well.
    Let me continue with this. FLETC's original proposal was 
$272 million against that same scope at that point. We will 
talk a lot today about scope. But the scope that presented the 
first estimate--and that is what it was. It was a bid at $900 
million. FLETC's proposal came in with a similar scope or a 
given scope of $272 million.
    State later reduced the scope of that plan, removing soft 
skills, cafeterias, housing, medical, and recreation 
facilities. In the end, we are looking at a reduced scope 
proposal with an initial capital cost of $413 million at FASTC 
versus $243 million for augmenting FLETC. And later we will get 
into these numbers a little more. I am just trying to hit the 
high points here.
    Per the request of Congress, GAO has reevaluated these 
proposals. Unfortunately, we still do not have a true apples-
to-apples comparison as we sit here today, and we will talk 
about that more as well.
    What we want to get at today is the process by which these 
decisions have been made. The State went ahead on a major 
construction project. And we have invested, I think, $71 
million now at the Fort Pickett, VA, location. This full 
assessment, while it may end up being the right choice--I would 
argue that we do not have a true apples-to-apples comparison 
yet today against the original scope or against the revised 
scopes that have been put forward.
    So part of our hope today is to make sure that we all agree 
or the State Department will present what that scope needs to 
be so that as we look at this outside group that is doing the 
new study between now and December, we will not have to revisit 
this after that so that we all agree on what that scope of 
mission is.
    There is a delay actually. I think that project has been 
put on hold, as I understand it, until we get this apples-to-
apples comparison.
    And I applaud the State Department for taking one last look 
at this to make sure that we spend the money that is absolutely 
necessary.
    And I just want to make sure again that we reemphasize that 
this is not a parochial conversation. This is about taxpayer 
money and the mission that we have of training people.
    The review today, though, is part of a bigger process--I 
want to take just a second on this--about how we spend money in 
the State Department. And it is not just in training. Looking 
at embassy construction is just one that we will eventually get 
to.
    There are several recent examples that do raise concerns. 
Just this summer, our committee received a notification from 
State that the new Embassy Compound in Islamabad, Pakistan, 
originally estimated at $850 million, is now going to be--the 
estimate overrun is about $87 million.
    The $1 billion Embassy in London is now $100 million over 
budget, and it is not done yet.
    And in Papua-New Guinea, a $50 million originally now has 
turned into a $211 million Embassy in Papua.
    So it raises questions. As a business guy looking at this, 
I know Tim with his background--Senator Kaine rather--has 
looked at these things as well. Overruns happen when scopes 
change. We all understand that. But when you see a continuous 
pattern, it does heighten the need for oversight in my opinion.
    So with that, let me turn to our ranking member, Senator 
Tim Kaine, and thank him for his work on this over the past few 
months since I have been here and indeed in the years past. 
Thank you.

             OPENING STATEMENT OF HON. TIM KAINE, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Kaine. Thank you and thanks, Mr. Chair, for your 
kind opening comments and to our witnesses and my other 
colleagues for being here today.
    One of the things I appreciate being ranking member of this 
subcommittee, as the chair led off with, it is about the 
personnel, and that has been his attitude and it is certainly 
mine. When we travel and we interact with personnel in the 
State Department who are doing tough missions abroad, often in 
places where they cannot bring their family, places that are 
dangerous, we always remember to thank them. And that is 
something that bonds all of us on this.
    And this is about an important matter, about the safety of 
our embassy personnel in a world that sadly is a lot more 
dangerous than it used to be and that we would hope that it 
would be.
    A few comments on the history because I am troubled by this 
as well, but I guess the thing that troubles me most is the 
delay. And so that is kind of what I want to get into. This was 
a project that was identified by the State some years ago, as 
the Chair indicated, the need to have a facility that better 
trained State Department personnel to meet the security needs 
of a more dangerous world.
    By late 2010, December 2010, after this very significant 
site selection process--and this is now more than 2 years 
before I came to the Senate--the State Department and GSA 
together had identified Fort Pickett as the appropriate site 
for this particular mission. Plans were then made, EIS, et 
cetera to move that forward, and then the horrible tragedy of 
Benghazi occurred in September 2012, sort of underlining and 
putting an exclamation point after the need for better security 
training. So the initial study was done by the State and the 
GSA.
    In the aftermath of the attack on Benghazi, the 
Accountability Review Board that reviewed what happened and, 
more importantly, made recommendations for how to avoid it ever 
happening again focused on the need for better embassy security 
training. And there were two subcommittees that were appointed 
to implement the recommendations of the ARB. ARB recommendation 
17 dealt with embassy security training. And both of those 
subcommittees, as they analyzed what needed to be done, came 
back to the need not only for a new facility but for the 
facility at Fort Pickett because of its proximity to State 
Department personnel in Washington and the proximity to the 
Marine Security Guard training program that provides all that 
great Marine security at post 1 at every embassy all around the 
world. Fort Pickett had a number of virtues, but the proximity 
to State and the proximity to the Marine Security Guard was one 
of its principal virtues.
    So at that point when the Accountability Review Board had 
come up with its recommendations, we now have State and the GSA 
and the Accountability Review Board all pointing in the same 
direction.
    As the chair mentioned, the decision was made, I think, 
following some congressional inquiry, especially from the House 
side, to review and reanalyze the choice of Fort Pickett, vis-
a-vis the FLETC facility in Georgia. The OMB conducted that 
analysis from about February 2013 through April 2014, an 
additional year of kind of waiting. But they did the analysis, 
and when they finished, they decided to defer to the initial 
choice that State and the GSA had made.
    At that point, in the aftermath of this Benghazi attack and 
the recommendation that the security training needs of our 
personnel were paramount, it was my hope that it would then 
move forward. But as part of the appropriations process last 
year, the House inserted language that was accepted as part of 
appropriations language to require a study by now a fifth 
agency. I am calling State, GSA, OMB--three--the Accountability 
Review Board, but now the fifth agency, the GAO. The GAO has 
done a study. It came out on the 9th of September, and that is 
the occasion for this hearing today to dig into the GAO's 
recommendations.
    And I know we will have questions and digging into process 
both for this project in particular, but also more generally, 
as you point out, what is the right way that we should be doing 
projects.
    But I am just mindful here of time passing. It has been 
nearly 5 years since the State/GSA process chose Fort Pickett 
as the site after a multiyear search to get to that decision. 
It has been 3 years now since the attack on Benghazi, multiple 
years after money was put into the budget to do this training 
facility. And I just feel a sense of urgency about the need for 
this training, as I know you do.
    You know, you go to these embassies overseas. Like you go 
to the one in Beirut and you walk by the memorial marker to all 
those embassy personnel who were killed in the Beirut bombings. 
I think Americans remember that marines were killed, but they 
may not remember so much how many State Department lives were 
lost there. And we see the evacuation, whether it is in Libya 
or Yemen. These are tough times for the people doing these 
jobs, and I think we need to move with dispatch to make sure 
that the security training that we provide is as strong as it 
can be. Cost is important, clearly, but the security training 
being done and being done right is critically important.
    And so that is what I hope we will get at and move toward 
as we have this hearing today.
    Senator Perdue. Well, thank you, Ranking Member.
    Now we are going to reach to our witnesses today. The first 
up is Assistant Secretary Greg Starr, who serves as Assistant 
Secretary of State for Diplomatic Security. In this capacity, 
he is in charge of the security and law enforcement arm of the 
State Department. He previously served as Director of the 
Diplomatic Security Service.
    His overseas assignments have included Senior Regional 
Security Officer at the U.S. Embassy in Tel Aviv, as well as 
Senior Regional Security Officer positions in Tunis, Tunisia; 
Dakar, Senegal; and was assigned to the Regional Security 
Office in Kinshasa, Zaire, presently the Democratic Republic of 
Congo.
    I might add also that he shared with me, as we were being 
introduced just a minute ago, that he has actually personally 
been evacuated twice in his career. Assistant Secretary, thank 
you for being here.

STATEMENT OF HON. GREGORY STARR, ASSISTANT SECRETARY, BUREAU OF 
 DIPLOMATIC SECURITY, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Starr. Chairman Perdue, thank you very much. Ranking 
Member Kaine, distinguished members, Senator Cardin, Senator 
Isakson, good afternoon. And I want to thank you for the 
opportunity to discuss our plans for a foreign affairs training 
center at Fort Pickett, VA.
    As has been said, improved training was a key finding of 
the Benghazi Accountability Review Board in the aftermath of 
the attack in 2012. The Diplomatic Security Organization and 
Management Review Panel, which was commissioned after the ARB, 
and then a Best Practices Panel, both staffed with serious, 
high-minded individuals whose judgment I find impeccable and 
their credentials impeccable, both came to the conclusion--both 
panels recommended that the Department establish a consolidated 
training facility in close proximity to Washington, DC.
    Since that time, attacks on State Department facilities and 
personnel in Herat, Afghanistan; Erbil, Iraq; Ankara, Turkey, 
plus the need for evacuations from Libya and Yemen, only 
highlight the danger that our employees face while fulfilling 
our diplomatic responsibilities abroad. We have learned from 
these events, just as we have learned from Benghazi, and we 
continue to modify the training as we learn new, hard lessons 
almost every day.
    The Department has initiated efforts to combine numerous 
hard skills training venues into one consolidated site and we 
tried to do this even prior to the Benghazi-related 
recommendations. In 2009-2010, the Department and the General 
Services Administration reviewed over 70 properties before 
selecting Fort Pickett in Blackstone, VA. In 2013, we reduced 
the scope of the project to focus solely on the consolidation 
of hard skills training, cutting the project's cost from an 
initial estimate of over $900 million to $413 million, an 
estimate that has been verified by GSA and their two 
independent accounting firms.
    In searching for a consolidated training center in 
proximity to Washington, this has been a priority for us for 
two primary reasons.
    First, Washington is the hub for the Department of State 
and other Federal agency personnel preparing to go overseas. 
Having a closer training facility will cut travel costs, 
provide more training opportunities not just for our officers, 
but particularly for our family members, and improve logistics.
    Second, staying in the mid-Atlantic region allows us to 
continue to train with critical security partners, particularly 
the United States Marine Corps elements that we work with every 
single day. This collaboration is essential, as we have seen in 
Libya, Yemen, and Burundi. According to the recently released 
Government Accountability study, Marine units stationed in 
Quantico, VA, have already determined that their budget will 
not support travel to facilities located outside of the 
Washington region.
    Consolidation is critical because it increases the 
effectiveness of the training by allowing students to 
seamlessly transfer from one real world scenario to another. 
Threats often emerge quickly and a consolidated training center 
will provide the flexibility necessary to immediately train for 
emerging threats and major events.
    Our specialized training for high-threat environments 
includes heavy weapons, explosives demonstrations, armored 
vehicle driving, helicopter landings, extensive night training, 
evacuation training. Finding a single site that can accommodate 
all of these elements without disrupting the surrounding area 
has been challenging. A low population density region is 
critical to ensuring the current and foreseeable real world 
training requirements that we need and can be met 24 hours a 
day, 7 days a week.
    The Federal Law Enforcement Training Center has a strong 
core competency in training Federal law enforcement agencies, 
and this is why we send our own agents there for basic 
investigative training. But with FASTC, we are not training for 
law enforcement duties. We are preparing diplomatic security 
agents for service at critical threat overseas, which requires 
an extremely specific skill set, working with our DOD partners, 
rather than our domestic law enforcement partners.
    In April 2013, the Department asked to suspend project 
efforts at Fort Pickett and reevaluate the feasibility of 
locating FASTC in Glynco. Over the next year, we worked 
collaboratively with FLETC through multiple site visits and 
exchanges of information. After the review, we decided to 
locate FASTC at Fort Pickett as reflected by the 
administration's request for $99 million of FASTC funding in 
2016.
    That said, we recognize the concerns of Congress and have 
arranged for an independent cost-benefit analysis comparing 
FASTC, FLETC, and our interim training center, Summit Point. 
The CBA is being conducted by Deloitte under contract to GSA.
    While we look forward to receiving that cost-benefit 
analysis, the Department remains confident--confident--that 
Fort Pickett is the best option for an effective and cost-
efficient training facility. We appreciate the time and effort 
on the part of Director Courts and his team at GAO in examining 
this issue.
    Thank you for the opportunity. I am out of time at this 
point. And I look forward to answering any questions you have.
    [The prepared statement of Mr. Starr follows:]

                 Prepared Statement of Gregory B. Starr

    Chairman Perdue, Ranking Member Kaine, and distinguished members of 
the committee--good afternoon. Thank you for the opportunity to discuss 
the Department's plan for a Foreign Affairs Security Training Center 
(FASTC) at Fort Pickett, Virginia.
    Improved training was a key finding of the Benghazi Accountability 
Review Board (ARB) in December 2012. The Diplomatic Security 
Organization and Management Review Panel and Best Practices Panel, both 
convened as a result of the ARB, recommended that the Department 
establish a consolidated training facility in close proximity to 
Washington, DC.
    Since that time, attacks on State Department facilities and 
personnel in Herat, Afghanistan; Erbil, Iraq; and Ankara, Turkey--plus 
the need for evacuations from Libya and Yemen--have highlighted the 
danger our employees face while fulfilling our diplomatic 
responsibilities abroad. We have learned from these events and continue 
to modify our training as needed.
    The Department had initiated efforts to combine numerous hard 
skills training venues into one consolidated site even prior to the 
Benghazi-related recommendations. In 2009-2010, the Department and the 
General Services Administration (GSA) reviewed over 70 properties 
before selecting Fort Pickett in Blackstone, Virginia. In 2013, we 
reduced the scope of the project to focus solely on the consolidation 
of hard skills training, cutting the project's cost from over $900 
million to $413 million, an estimate which has been verified by two 
engineering firms.
    In searching for a consolidated training center, proximity to 
Washington, DC, has been a priority for two primary reasons. First, 
Washington is the hub for Department of State and other federal agency 
personnel preparing to go overseas. Having a closer training facility 
will cut travel costs, provide more training opportunities to family 
members, and improve logistics. Second, staying in the mid-Atlantic 
region allows us to continue to train with our critical security 
partners, especially the Marine Corps. This collaboration is essential, 
as we have seen in Yemen, Libya, and Burundi. According to the recently 
released Government Accountability Office (GAO) study, Marine units 
stationed in Quantico, Virginia, have already determined that their 
budget will not support travel to facilities located outside of the 
Washington region.
    Consolidation is critical because it increases the effectiveness of 
the training itself by allowing students to seamlessly transfer from 
one real world scenario to another. Threats often emerge quickly and 
require immediate action to counter. Having a dedicated and 
consolidated training center will provide the flexibility necessary to 
immediately train for emerging threats and major events.
    Our specialized training for high threat environments includes 
heavy weapons, explosives demonstrations, armored vehicle driving, 
helicopter landings, and extensive night training. Finding a single 
site that can accommodate all of these elements without disrupting the 
surrounding area has been challenging. A low population density region 
is critical to ensuring that current and foreseeable real-world 
training requirements can be met 24 hours a day, 7 days a week.
    The Federal Law Enforcement Training Center (FLETC) has its strong 
core competencies in training federal law enforcement agencies, which 
is why we send our own agents there for basic investigative training. 
But with FASTC, we are not training solely for law enforcement. We are 
preparing Diplomatic Security agents for service at critical threat 
overseas posts, which requires an extremely specific skill set, working 
with our DOD partners, rather than our domestic law enforcement 
partners.
    In April 2013, the Department was asked to suspend project efforts 
for Fort Pickett and reevaluate the feasibility of locating FASTC at 
FLETC in Glynco, Georgia. Over the next year, the Department worked 
collaboratively with FLETC through multiple site visits and the 
exchange of information to further evaluate this possibility. After an 
extensive review, the administration supports the State Department's 
decision to locate FASTC at Fort Pickett, as reflected by the 
administration's request for $99 million in FASTC funding for FY 2016.
    That said, the Department recognizes the concerns Congress has 
raised about this plan. To that end, we have temporarily put this 
project on hold again and arranged for an independent Cost Benefit 
Analysis (CBA) comparing FASTC at Fort Pickett, FLETC at Glynco, and 
the Interim Training Facility (ITF) at Summit Point, West Virginia. The 
CBA is being conducted by Deloitte under contract to GSA and is slated 
for completion by mid-December.
    While we look forward to receiving the CBA, the Department remains 
confident that Fort Pickett is the best option for an effective and 
cost efficient consolidated training facility. We appreciate the time 
and effort on the part of Director Courts and his team at GAO in 
examining this issue.
    As for the current status and timeline for future development of 
FASTC at Fort Pickett, we are hoping to move forward with construction 
after the completion of the CBA so that we are on track to be fully 
operational in early 2019.
    Thank you again for this opportunity. I look forward to answering 
any questions you have.

    Senator Perdue. Thank you.
    Our next witness is Director Connie Patrick. Connie Patrick 
was selected as the fifth Director of the Federal Law 
Enforcement Training Center, FLETC, in July 2002. Previously, 
Ms. Patrick spent over 6 years in various FLETC associate 
director positions. She provides oversight for the training of 
the majority of Federal offices and agents in that location.
    Prior to her appointment at FLETC, Ms. Patrick completed a 
distinguished 20-year sworn law enforcement career in Florida, 
starting in 1976 as a deputy sheriff with the Brevard County 
Sheriff's Office. She served in uniform patrol, vice and 
narcotics, homicide, and intelligence.
    Welcome, Ms. Patrick, and we look forward to your comments.

     STATEMENT OF CONNIE L. PATRICK, DIRECTOR, FEDERAL LAW 
   ENFORCEMENT TRAINING CENTERS, U.S. DEPARTMENT OF HOMELAND 
                      SECURITY, GLYNCO, GA

    Ms. Patrick. Thank you, Mr. Chairman, Ranking Member Kaine, 
and members of the committee. It is an honor to be here with 
you today.
    I would like to thank Congress for its long-standing 
support of FLETC's mission, to train those who protect the 
homeland. I have been privileged to serve as the Director since 
2002 and after holding several senior positions with FLETC and 
after completing a career in Florida.
    Forty-five years ago, Congress established FLETC under the 
premise that consolidated Federal law enforcement training 
provides consistency and efficiency in preparing law 
enforcement officers and agents, while enabling agencies to 
conduct specialized training that meets their operational 
needs.
    Today, FLETC delivers training to 96 Federal partner 
organizations, thousands of State, local, tribal, and 
international officers and agents at four domestic training 
sites throughout the United States, at international law 
enforcement academies, and at export locations both 
internationally and in the States. FLETC also engages in 
ongoing training review, development, and research in 
coordination with stakeholders, has a long history of working 
with our partners to adapt training programs and facilities to 
meet emerging needs.
    The Department of State was an original signatory to the 
FLETC memorandum of understanding in 1970 and remains a valued 
partner. The Department of State's Bureau of Diplomatic 
Security Service, DS, criminal investigators attend the basic 
training program at FLETC-Glynco, and the agents attend various 
advanced training programs there as well. Department of State 
granted FLETC certification to conduct the Foreign Affairs 
Counter-Threat Training program this year in March. FLETC fully 
supports Department of State's need to consolidate its training 
in furtherance of best preparing its personnel to serve its 
critical overseas function.
    In early 2013, the Office of Management and Budget 
requested that FLETC work with the Department of State and 
General Services Administration to assess the viability of 
using capacity at FLETC-Glynco and to determine the cost of any 
additional construction to meet their needs. FLETC accordingly 
developed a rough order of magnitude cost estimate of $200 
million, which FLETC later refined to $272 million in November 
2013 at OMB's request. This estimate and associated business 
case are based on the Department of State's original full 
master plan and guarantees Department of State's primacy of use 
of facilities constructed specifically for their needs.
    In April 2014, FLETC received notification from OMB that 
the decision had been made to allow Department of State to 
establish the Foreign Affairs Security Training Center at Fort 
Pickett. Since that time, FLETC has taken no further action on 
this issue except to respond to congressional inquiries on its 
2013 cost estimate.
    FLETC remains committed to Department of State's goal to 
consolidate its training and looks forward to a continued 
partnership with Department of State.
    And I am pleased to answer any questions the committee may 
have.
    [The prepared statement of Ms. Patrick follows:]

                Prepared Statement of Connie L. Patrick

    Good afternoon Chairman Perdue, Ranking Member Kaine, and members 
of the committee. It is a pleasure to be with you today to discuss the 
Federal Law Enforcement Training Centers' (FLETC) capabilities and our 
participation in the administration's due-diligence of the State 
Department's overseas security training facility.
                             fletc overview
    I would like to acknowledge and thank Congress for its long-
standing support of FLETC's mission to train those who protect the 
homeland. Congress created FLETC in 1970 under the premise that 
consolidated federal law enforcement training provides consistency and 
efficiency in the preparation of law enforcement officers and agents, 
while enabling agencies to conduct specialized training unique to their 
missions. I have been privileged to serve as the Director of FLETC 
since 2002, after completing a 20-year sworn law enforcement career in 
Florida.
    Today, FLETC is the Nation's largest provider of law enforcement 
training. It delivers basic and advanced training to 96 federal partner 
organizations and thousands of state, local, tribal, and international 
law enforcement officers and agents at four domestic training sites in 
Glynco, Georgia; Charleston, South Carolina; Artesia, New Mexico; and 
Cheltenham, Maryland; at the International Law Enforcement Academies 
worldwide, and at export locations throughout the United States and 
internationally. FLETC also engages in ongoing training review, 
development, and research in coordination with stakeholders at all 
levels of law enforcement to ensure its training continues to meet its 
partners' evolving needs. In fiscal year 2014, FLETC trained nearly 
60,000 law enforcement officers and agents at all of its sites and 
export locations. Since 1970, FLETC has trained over 1 million law 
enforcement officers and agents.
    FLETC's consolidated training model offers quantitative and 
qualitative benefits to both taxpayers and law enforcement agencies. 
While FLETC provides training in core areas common to all law 
enforcement officers, such as firearms, driving, tactics, 
investigations, and legal issues, partner organizations deliver 
training specific to their operational needs. Moreover, the 
consolidated training model avoids unnecessary duplication of 
infrastructure and resources. Using the FLETC model, one federal agency 
builds and manages the infrastructure germane to a residential training 
facility, such as a cafeteria, gymnasium, library, training venues, 
classrooms, computer laboratories, dormitories, and recreational 
facilities, which all partners utilize. Moreover, agencies leverage and 
share existing support infrastructure, such as water, sewage, 
maintenance, and power services.
    Beyond the economic rationale for the consolidated training model, 
agencies also benefit from enhanced interoperability and high quality 
training by training together. For example, FLETC's curriculum 
development and review process brings together experts from across the 
law enforcement community to share and vet ideas about training content 
and methodology. Like the peer review process in many professions, the 
healthy exchange of thoughts and concepts breeds thorough analysis of 
contemporary law enforcement issues and techniques, and invokes 
beneficial change. FLETC law enforcement training classes often 
comprise officers and agents from a variety of agencies, improving 
future interoperability in the performance of daily duties and during 
times of emergency. The consolidated training model thus leverages the 
significant role that training can play in fostering long-term 
collaborative mindsets, teamwork, and information-sharing capabilities 
in law enforcement officers from different agencies.
    The terrorist attacks of September 11, 2001, underscored the 
critical need for all law enforcement agencies to work together more 
effectively; to share intelligence, information, and know-how more 
seamlessly; and to break down traditional stovepipes that had 
previously prevented integration of effort. In the increasingly complex 
law enforcement landscape, the consolidated training model offers 
consistency in training law enforcement officers and agents in core 
competencies, combined with the flexibility to enable agencies to 
prepare personnel to meet their specific operational needs. The 
congressional vision that established FLETC 45 years ago remains as 
relevant today as it ever was. FLETC continues to build partnerships 
across the vast law enforcement community to ensure optimal execution 
of the consolidated law enforcement training model.
             fletc's experience in meeting and adapting to 
                   partners' changing training needs
    FLETC has a long, rich history of adapting training programs and 
facilities to meet emerging threats and associated agency training 
requirements. As training demands increased and changed in the post-9/
11 homeland security environment, FLETC grew to four domestic training 
sites, and its international mission significantly expanded. The 
transition into the post-9/11 environment occasioned a refocusing and 
expansion of many FLETC training programs as well as the creation of 
new ones to meet emerging needs, such as anti/counterterrorism, flying 
armed, intelligence awareness, and critical infrastructure protection. 
Working with the Transportation Security Administration in the 
aftermath of the September 11 terrorist attacks, FLETC assisted in the 
rampup of the Federal Air Marshal Service by aiding in the design of a 
formal training program and sustaining an increased tempo for student 
throughput. Also at that time, FLETC worked with the U.S. Border Patrol 
to transition its Border Patrol Academy to FLETC's site in Artesia, New 
Mexico, as the agency doubled in size and had to train thousands of 
agents to meet increased staffing requirements. FLETC also created the 
first basic academy of the Office of the Courts for 4,000 federal 
probation officers, and assisted the U.S. Coast Guard in consolidating 
its law enforcement training effort at FLETC's site in Charleston, 
South Carolina.
    Additionally, over the past decade and a half, in coordination with 
its partner organizations, FLETC has built new state-of-the-art 
facilities to provide realistic training scenarios and exercises for 
officers and agents confronting a changing world. These new venues 
include multipurpose facilities for counterterrorism and complex 
tactical training. Additionally, FLETC has constructed high-speed 
driving ranges that support armored vehicles such as armored suburbans, 
where partner organizations train prior to deployments throughout the 
world. During its history, FLETC has worked with numerous partner 
organizations to develop training venues based on specific training 
requirements. For example, FLETC collaborated with U.S. Customs and 
Border Protection to construct a mock port of entry, with the U.S. 
Capitol Police to build a replica of the U.S. Capitol complex, and with 
the Bureau of Alcohol, Tobacco, Firearms and Explosives to develop a 
bomb range that met their specifications and an arson investigation 
practical exercise venue.
    In the face of unprecedented growth in FLETC's training throughput 
in the years following the September 11 terrorist attacks, FLETC has 
consistently met its participating partner organizations' law 
enforcement training needs. FLETC leverages the numerous avenues it has 
in place to collaborate on training with its partner organizations, and 
encourages ongoing dialogue on training and administrative matters.
            fletc engagement on department of state's (dos) 
                     training consolidation efforts
    DOS was an original signatory to the FLETC Memorandum of 
Understanding in 1970, and remains a valued partner. DOS's Bureau of 
Diplomatic Security Service (DS) criminal investigators attend basic 
criminal investigator training at FLETC, and DS agents attend various 
advanced FLETC training programs. In April 2014, OMB asked FLETC to 
work with DOS to attain certification to deliver DOS's Foreign Affairs 
Counter Threat (FACT) Training at FLETC's Glynco location. DOS granted 
FLETC this certification in March 2015. FLETC piloted the FACT Training 
in Glynco the week of July 27, 2015, and will incorporate this program 
into its scheduled offerings for fiscal year 2016. FLETC fully supports 
the administration's decision to consolidate DOS's hard skills training 
at Fort Pickett, Blackstone, Virginia, in furtherance of best preparing 
its personnel to serve its critical overseas function, which has been 
explained in the testimony from my colleague from the Department of 
State.
    In early 2013, the Office of Management and Budget (OMB) requested 
that FLETC work with DOS and the General Services Administration to 
assess the viability of using available capacity at FLETC facilities, 
and the cost of any additional required construction to meet DOS's 
training needs. FLETC accordingly developed a rough order of magnitude 
cost estimate of $200 million, which OMB asked FLETC to refine in 
August 2013. In response, in November 2013, FLETC submitted a more 
detailed cost estimate of $272 million to OMB.
    This estimate and associated business case are based on DOS's 
original full scope master plan, and account for training that FLETC 
could conduct immediately, training that would require modification to 
existing facilities, and training that would require new construction. 
FLETC's proposal was based on DOS's stated physical plant requirements 
and guarantee for DOS primacy, but not exclusive, of use of facilities 
constructed specifically for the needs of DOS. These venues would be 
available for the use of and benefit to other agencies when not in use 
by State.
    In April 2014, FLETC received notification from OMB that the 
decision was made to allow DOS to establish the Foreign Affairs 
Security Training Center at Fort Pickett. Subsequently, the 
administration's 2016 budget request included $99 million for 
construction of the Foreign Affairs Security Training Center at Fort 
Pickett and therefore no investment is being made at FLETC for DS 
training. Since the decision was made to proceed with Fort Pickett 
construction, FLETC has taken no further action on the issue except for 
responding to congressional inquiries on its 2013 cost estimate. FLETC 
has cooperated with a Government Accountability Office (GAO) engagement 
on this topic, and GAO recently published its report. Additionally, the 
General Services Administration recently advised FLETC that Deloitte 
Consulting LLP would be conducting a cost benefit analysis comparing 
Fort Pickett, FLETC, and another venue DOS currently uses to conduct 
training.
    FLETC supports the administration's decision to consolidate State's 
training at Fort Pickett, stands ready to assist however possible, and 
looks forward to a strong continued partnership with DOS.

    Senator Perdue. Thank you.
    Our next witness, Michael J. Courts, is a Government 
Accountability Office Director in the agency's International 
Affairs and Trade Team.
    Since 2003, he has directed GAO reviews of a wide range of 
U.S. Government operations and programs in the international 
arena to assist Congress in carrying out its oversight 
responsibilities.
    Thank you for joining us today, Mr. Courts. We look forward 
to your comments.

 STATEMENT OF MICHAEL COURTS, DIRECTOR, INTERNATIONAL AFFAIRS 
    AND TRADE TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE, 
                         WASHINGTON, DC

    Mr. Courts. Good afternoon, Mr. Chairman, Ranking Member 
Kaine, and members of the subcommittee.
    I am pleased to be here this afternoon to discuss the State 
Department's efforts to locate a consolidated facility for 
diplomatic security training, more specifically, two different 
proposed sites for such a facility, one known as the Foreign 
Affairs Security Training Center, or FASTC, at Fort Pickett in 
Blackstone, VA, and the other at the Federal Law Enforcement 
Training Centers, or FLETC, in Glynco, GA.
    This testimony is based on a GAO report dealing with this 
subject that we issued last month.
    GAO was asked to testify this afternoon on key site 
requirements critical to providing diplomatic security training 
and the extent to which the two different proposed sites meet 
these requirements and the estimated capital and recurring 
costs of these proposals and the extent to which the capital 
cost estimates conform to leading practices.
    In summary, we analyzed four of State's requirements that 
we determined were critical in the selection of a site for the 
facility and found the FASTC site in Blackstone fully met the 
requirements and the FLETC in Glynco did not. We also found 
that neither the FASTC nor the FLETC estimate for capital costs 
fully meets best practices for reliable cost estimates.
    My first point is that as a purpose-built facility, the 
FASTC site would fully meet State's four critical site 
requirements: consolidation, proximity to Washington, DC, 
exclusive use, and 24/7 availability.
    The Fort Pickett site would enable State to consolidate at 
one location most of the widely scattered hard skills training 
venues it is currently using. FLETC can accommodate many of 
these venues on its campus but would have to conduct some 
exercises such as training of long-range weapons, heavy 
explosives, and some nighttime exercises at the Townsend 
Bombing Range about 30 miles away.
    The FASTC site at Fort Pickett is about 160 miles from 
Washington, or nearly 3 hours by car, and located near the 
Marine Corps units in Virginia that are the Diplomatic Security 
Bureau's primary training partners. FLETC is approximately 640 
miles from Washington, or about 5 to 6 hours by air.
    The FASTC site would allow State to control its training 
venues and have the flexibility to implement scheduling changes 
to respond to rapidly evolving security situations overseas. 
FLETC can offer State priority scheduling but not exclusive 
use.
    Fort Pickett, which covers about 42,000 acres in a rural 
area, is available for nighttime training. FLETC, which is 
adjacent to the Town of Brunswick, GA, does not conduct certain 
types of training at night, and FLETC officials told us that 
exercises there currently end by 10 p.m.
    My final point is that neither the FASTC nor the FLETC 
estimate for capital costs fully meets best practices for 
reliable cost estimates. The FASTC estimate fully or 
substantially meets three of the four characteristics and 
partially meets one. The FLETC estimate partially or minimally 
meets all four characteristics.
    I should note that FLETC had limited time and information 
to prepare its estimate.
    State and GSA estimated that acquisition and construction 
costs for the current plan for FASTC would be $413 million. 
State and GSA have obligated $71 million of these costs to 
date. FLETC's estimate was $243 million, but FLETC did not have 
complete information on State's requirements when it developed 
this estimate.
    Projected recurring costs for things like operations and 
maintenance are greater for FASTC than FLETC based on current 
cost estimates. For example, the cost could be $266 million 
greater over 25 years and $372 million greater over 50 years. 
However, because these costs are based on capital cost 
estimates that were unreliable, these projections may also be 
unreliable.
    We projected the cost of sending students to training for 
both proposals, including travel, lodging, meals, and 
incidental expenses and compensation for time spent traveling. 
And we found that under multiple scenarios, the costs of 
sending students to FASTC were less than sending them to FLETC. 
For example, the cost could be from $122 million to $323 
million less over 25 years and from $309 million to $736 
million less over 50 years.
    Mr. Chairman and Ranking Member Kaine, this concludes my 
prepared remarks. I would be happy to address any questions 
that you may have.
    [The prepared statement of Mr. Courts follows:]

                Prepared Statement of Michael J. Courts

    Chairman Perdue, Ranking Member Kaine, and members of the 
subcommittee, thank you for the opportunity to discuss our work on the 
Department of State (State) Bureau of Diplomatic Security's (DS) 
efforts to locate a consolidated training facility. State has been in 
the process of looking for a site suitable for its DS training facility 
for more than a decade. In 2011, we reported that the lack of a 
consolidated training facility was a significant challenge to carrying 
out DS's mission.\1\ DS currently provides training at 12 contracted 
and leased sites in seven states, which DS officials believe is 
inefficient and more costly than a consolidated facility would be.
    In 2011, State and the General Services Administration (GSA) 
identified Fort Pickett near Blackstone, Virginia, as the preferred 
site for a DS training facility, known as the Foreign Affairs Security 
Training Center (FASTC). The initial 2012 master plan for FASTC would 
have consolidated training in hard skills (e.g., firearms, driving, and 
explosives) and soft skills (e.g., classroom-based training in 
counterintelligence, cybersecurity, and law) at Fort Pickett for an 
estimated cost of $925 million. In 2013, State reduced the scope of 
FASTC to exclude facilities for soft-skills training and life support 
functions, such as dormitories and a cafeteria, ultimately decreasing 
the estimated cost of the current proposal to $413 million. Also in 
2013, the Office of Management and Budget (OMB) directed State to work 
with the Department of Homeland Security (DHS) to assess the viability 
of using the Federal Law Enforcement Training Centers (FLETC) in 
Glynco, Georgia, to accommodate DS's training. In November 2013, FLETC 
submitted a business case to OMB indicating that it could meet DS's 
requirements, including soft-skills training, for an estimated cost of 
$272 million. Following this assessment, DS, FLETC, and OMB could not 
agree on a path forward.
    Ultimately, OMB deferred to State on the decision of where to 
locate its training facility. In April 2014, the administration 
reaffirmed the selection of Fort Pickett for FASTC. To date, State and 
GSA have obligated about $71 million of the estimated $413 million in 
capital costs toward FASTC at Fort Pickett, including for the purchase 
of land in May 2015.
    My testimony summarizes our September 2015 report on the FASTC and 
FLETC proposals for accommodating DS training.\2\ Like that report, 
this testimony discusses (1) key site requirements critical to 
providing DS training and the extent to which the FASTC and FLETC 
proposals meet these requirements and (2) the estimated capital and 
recurring costs of these proposals and the extent to which the capital 
cost estimates conform to leading practices for reliable cost 
estimates.
    For our September 2015 report, we reviewed documents on the 
requirements for DS's training facility and proposals to meet these 
requirements from State, DHS, and GSA. We also reviewed the Benghazi 
Accountability Review Board (ARB) report and reports by two panels 
established as a result of recommendations by the ARB, including the 
Independent Panel on Best Practices. We conducted site visits to Fort 
Pickett, FLETC, and three of DS's current training venues, interviewed 
officials at State, FLETC, GSA, and OMB about the proposals, and spoke 
with officials from agencies that DS identified as its training 
partners, including the Marine Security Guards, Naval Special Warfare 
Command, U.S. Secret Service, Federal Bureau of Investigation, and 
Central Intelligence Agency. We focused on four requirements of the 
center that our analysis indicated were critical to providing basic and 
advanced DS training courses. While we assessed the need for these site 
requirements to accommodate DS's existing and planned training, we did 
not assess whether specific DS training courses are necessary to 
accomplish DS's mission of providing a safe and secure environment for 
the conduct of U.S. foreign policy. We did, however, confirm that DS 
currently conducts and plans to continue to conduct training that 
includes elements such as nighttime training, long-range firearms, and 
heavy explosives. We identified the number of courses and students that 
use these elements, as well as the projected number of such courses at 
the future training center. We observed a training exercise that 
involved several of these elements. We also asked DS officials to 
explain why the elements were necessary and, to the extent possible, 
reviewed actual examples of incidents overseas that supported DS's 
identified need for specific training elements. In some cases, we 
discussed these elements with DS's identified training partners as well 
as with FLETC.
    To assess the cost estimates for each proposal, we reviewed the 
September 2014 capital cost estimate for FASTC and the November 2013 
capital cost estimate for FLETC. We evaluated whether each cost 
estimate was generated according to best practices outlined in GAO's 
Cost Estimating and Assessment Guide.\3\ We reviewed data provided by 
State, GSA, and FLETC regarding their cost estimation practices. We 
also interviewed State, GSA, FLETC, and contractor staff responsible 
for preparing the FASTC and FLETC cost estimates. We reviewed cost data 
provided by State, FLETC, and GSA to determine the recurring operations 
and maintenance, recapitalization investment, and staffing and 
associated costs for each proposal. We also developed three scenarios 
to estimate the costs of sending students to each location, including 
costs for travel, lodging, meals and incidental expenses, and 
compensatory time for travel. We discussed assumptions regarding these 
costs with State, FLETC, and OMB officials and subsequently developed 
our own assumptions using several data sources. We provided our 
assumptions to State and FLETC for review and confirmation, and we 
revised our assumptions based on their comments where appropriate. 
Additional details on our scope and methodology can be found in our 
September 2015 report.
    We conducted the work on which this statement is based in 
accordance with generally accepted government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
                               background
    DS currently provides training in hard skills to a diverse student 
population. DS provides security familiarization training for Foreign 
Service and other civilian personnel and their families. It also 
provides advanced courses for DS agents, such as the High Threat 
Operations Course, an intensive 10-week course designed to provide 
agents with specialized training in a variety of tasks, including 
leadership, weapons, small unit tactics, air operations, and movement 
security procedures needed to operate in high-threat, high-risk posts. 
In addition, through the Antiterrorism Assistance program, DS provides 
training to foreign security personnel in areas such as crisis 
response, explosive incident countermeasures, post-blast 
investigations, and armored vehicle driving. DS has expanded its 
training over the last decade, and following the 2012 attack on the 
U.S. Special Mission compound in Benghazi, Libya, the independent ARB 
recommended further security training for DS agents and all other 
Foreign Service personnel.
    In June 2015, DS projected that it would train nearly 6,300 
students in hard skills in fiscal year 2015, compared to 3,500 students 
in 2007. DS estimates that it will provide more than 9,000 students 
with over 20,000 weeks of training per year once its training facility 
is fully operational.
    fort pickett fully meets ds's requirements while fletc does not
    For our September 2015 report, we analyzed four of DS's 
requirements that we determined were critical in the selection of a 
site for DS's training facility and found that Fort Pickett fully met 
all four while FLETC did not fully meet any.

  <bullet> Consolidation. Building FASTC at Fort Pickett would enable 
        DS to consolidate at one location 10 of the 12 widely scattered 
        hard-skills training venues it is currently using.\4\ FLETC can 
        accommodate many of these venues on its Glynco campus but would 
        have to conduct some exercises, such as training in long-range 
        weapons and heavy explosives, as well as some nighttime 
        exercises, at the Townsend Bombing Range, a Marine Corps 
        training facility about 30 miles from Glynco. FLETC did not 
        include costs for using this facility in its 2013 proposal.
  <bullet> Proximity to Washington, DC. The Independent Panel on Best 
        Practices, established as a result of the Benghazi ARB, 
        recommended a consolidated training center, located in 
        proximity to State's Washington, DC, headquarters, given 
        State's reliance on military units and other government 
        agencies located nearby. Fort Pickett is located about 160 
        miles from Washington, DC, or nearly 3 hours by car one way, 
        compared to FLETC, which is approximately 640 miles from 
        Washington, DC, or 5 to 6 hours by airplane one way. Over 90 
        partner organizations conduct training at FLETC; however, DS's 
        primary training partners, including the Marine Corps' Security 
        Augmentation Unit and its Fleet Antiterrorism Security Team, 
        are based in Virginia, and an official responsible for Marine 
        Security Guard training told us that the cost of transporting 
        personnel and equipment to and from FLETC would be prohibitive.
  <bullet> Exclusivity of use. The Independent Panel on Best Practices 
        ``strongly endorsed'' State's efforts to develop a training 
        facility that it could control, noting that agencies such as 
        the Federal Bureau of Investigation, the U.S. Secret Service, 
        and the Drug Enforcement Administration have adopted such a 
        policy as a best practice. At Fort Pickett, DS would control 
        its training venues and have the flexibility to implement 
        scheduling changes to respond to rapidly evolving security 
        situations overseas. FLETC stated that DS would be assured of 
        priority scheduling, but not exclusive use, for those 
        facilities that would be built for DS and provided a detailed 
        plan showing the facilities currently available and those that 
        would be constructed for DS. FLETC officials stated that when 
        DS was not using facilities prioritized for its use, other 
        federal, state, and local agencies would be allowed to train at 
        and benefit from the facilities.
  <bullet> 24/7 availability. DS conducts training during hours of 
        darkness on about 190 days per year, including 140 nights that 
        involve loud noises such as gunfire and small explosions. We 
        found that Fort Pickett, which covers about 42,000 acres and is 
        set in a rural area, is available for nighttime training. 
        FLETC, which is adjacent to the town of Brunswick, Georgia, 
        does not conduct certain types of training at night, and FLETC 
        officials told us that exercises there currently end by 10 p.m. 
        According to FLETC officials, DS could conduct such nighttime 
        exercises at the Townsend Bombing Range.
capital cost estimates for the fastc and fletc proposals are unreliable
    In our September 2015 report, we found that neither the FASTC nor 
the FLETC estimate for capital costs fully meets best practices for 
reliable cost estimates. The FASTC estimate fully or substantially 
meets three of the four characteristics \5\--comprehensive, well 
documented, and accurate--and partially meets one characteristic of 
reliable cost estimates--credible; \6\ the FLETC estimate partially or 
minimally meets all four characteristics (see table 1).\7\ FLETC 
officials noted that their estimate was prepared in a short period of 
time based on incomplete information regarding State's requirements; 
more complete information would have enabled them to develop a more 
comprehensive estimate. Our assessment of the reliability of these cost 
estimates focused on the processes used to develop the estimates rather 
than estimates themselves, enabling us to make a more direct comparison 
of their reliability.\8\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In September 2014, State and GSA estimated that acquisition and 
construction costs for the reduced-scope plan for FASTC would be $413 
million. FLETC's November 2013 proposal included a cost estimate 
comparable to the full-scope plan for FASTC; however, FLETC officials 
said that because they did not have complete information regarding the 
reduced-scope plan for FASTC, they were unable to develop a comparable 
cost estimate. For example, these officials said that State did not 
tell them which venues had been removed from the plan and that they 
were unaware of some of DS's training exercises. These officials said 
that they subtracted the costs of some facilities from the FLETC full-
scope estimate to arrive at a reduced-scope estimate of $243 million. 
FLETC has not refined its cost estimate since OMB notified it that the 
administration had selected the FASTC proposal in April 2014.
    In addition to capital costs for acquisition and construction of a 
DS training center, the analysis in our September 2015 report included 
projections for recurring costs for operations and maintenance (O&M) 
and for recapitalization investment--the costs of replacing broken 
systems and equipment.\9\ Our analysis also included recurring staffing 
and associated costs for each proposal. Using data provided by State, 
GSA, and FLETC, we projected these costs over 10, 25, and 50 years. We 
projected the capital and recurring O&M, recapitalization investment, 
and staffing costs to be $201 million more, in net present value, for 
FASTC over 10 years, $266 million more for FASTC over 25 years, and 
$372 million more for FASTC over 50 years (see table 2).\10\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Finally, the government is expected to incur costs of sending 
students to training. These recurring student costs include travel, 
lodging, meals and incidental expenses, and compensation for time spent 
traveling. We projected these costs over 10, 25, and 50 years in three 
different scenarios for both the FASTC and FLETC proposals. We 
estimated that the costs of sending students to FASTC over 10 years 
would be $43 million to $121 million less, in net present value, than 
sending students to FLETC. The difference in student costs between 
FASTC and FLETC increases over time, from between $122 million and $323 
million less for FASTC after 25 years, to between $309 and $736 million 
after 50 years (see table 3).\11\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Perdue, Ranking Member Kaine, and members of the 
subcommittee, this completes my prepared statement. I would be pleased 
to respond to any questions that you may have at this time.

----------------
End Notes

    \1\ GAO,``Diplomatic Security: Expanded Missions and Inadequate 
Facilities Pose Critical Challenges to Training Efforts,'' GAO-11-460 
(Washington, D.C.: June 1, 2011).
    \2\ GAO, ``Diplomatic Security: Options for Locating a Consolidated 
Training Facility,'' GAO-15-808R (Washington, D.C.: Sept. 9, 2015.
    \3\ GAO, ``GAO Cost Estimating and Assessment Guide: Best Practices 
for Developing and Managing Capital Program Costs,'' GAO-09-3SP 
(Washington, D.C.: March 2009).
    \4\ State indicated that DS would continue to use a FLETC facility 
in Cheltenham, Maryland, for weapons requalifications for agents 
assigned to the Washington, D.C., area. In addition, State officials 
said that they will continue to use the Bureau of Alcohol, Tobacco, 
Firearms and Explosives' National Canine Center in Front Royal, 
Virginia, for canine training.
    \5\ The four characteristics are defined as follows: (1) 
comprehensive--the cost estimate should include both government and 
contractor costs of the program over its full life cycle; (2) well 
documented--a good cost estimate, while taking the form of a single 
number, is supported by detailed documentation that describes how it 
was derived; (3) accurate--the cost estimate should provide for results 
that are unbiased, and it should not be overly conservative or 
optimistic; and (4) credible--the cost estimate should discuss any 
limitations of the analysis because of uncertainty or biases 
surrounding data or assumptions.
    \6\ ``Minimally met'' means that the agency provided evidence that 
satisfies a small portion of the criterion. ``Partially met'' means 
that the agency provided evidence that satisfies about half of the 
criterion. ``Substantially met'' means that the agency provided 
evidence that satisfies a large portion of the criterion. ``Fully met'' 
means that the agency provided complete evidence that satisfies the 
entire criterion.
    \7\ Specifically, the FLETC cost estimate partially meets three 
characteristics--comprehensive, well documented, and accurate--and 
minimally meets one characteristic--credible.
    \8\ More detail on our assessment of each cost estimate is provided 
in encl. V of GAO-15-808R.
    \9\ Because these recurring costs are based on capital costs that 
we determined were unreliable, these projections may also be 
unreliable. Thus, such projections should be used with caution.
    \10\ Net present value shows, in today's dollars, the relative net 
cash flow of various alternatives over a long period of time.
    \11\ We determined that these data were reliable for the purposes 
of developing a range of estimates of student costs. More details on 
our scope and methodology, including the assumptions we used in each of 
these scenarios, are provided in encl. III of GAO-15-808R.

    Senator Perdue. Thank you all. I should also thank you for 
your career of service. You are in extremely important roles of 
responsibility in this critical area.
    Before we get started with questions, I would like to ask 
unanimous consent that we add to the record a written statement 
from Congressman Buddy Carter from Georgia. Congressman 
Carter's district is home to FLETC and has been following this 
issue very closely. So with that, I will enter this into the 
record.

[Editor's note.--The written statement submitted for the record 
can be found in the ``Additional Material Submitted for the 
Record'' section at the end of this hearing.]

    Senator Perdue. I will go ahead and start my questions. And 
I would appreciate it if you guys could be as brief as 
possible. This is a very confusing issue and a lot of questions 
will come up, but try to be as brief as you can. We are going 
to mind the time as well.
    I want to start, Mr. Courts, with you and try to look at a 
couple things. From a business perspective, any RFP has to have 
a scope and that scope has to be agreed upon by the users and 
by the oversight people or whatever. In this case, that scope 
has been changed several times over the life of this exercise. 
And I could not agree more with the ranking member about the 
sense of urgency. Let us get an answer. It has been some 5 
years since we got serious about evaluating this. Most of what 
I am talking there happened on somebody else's watch. So I am 
not directing this at any of the witnesses.
    But I want to try to summarize where we are from your 
report, the GAO report, as best I can and ask a couple of 
questions because I think we still today do not have estimates 
for both sites against what we now understand to be the real 
scope, if that is fair. If that is not fair, Mr. Courts, I hope 
you will correct me.
    But as I understand it, there are three things that are 
involved. One is original capital costs. Then you have student 
costs, which is a recurring cost, and that is an annual cost. 
And you have operating cost, which is an annual cost again. And 
the life of the project is somewhere between 25 and 50 years. 
Pick a number and then make a decision. I am not going to weigh 
in on that.
    But your report gives us low, medium, and high estimates 
for both and then over 10, 25, and 50 years, if I remember it 
correctly. And so what I want to do is just highlight what is 
missing from what we now know, at least from a cost standpoint, 
and then we can get on to the subjective things. For example, I 
think we have some constraints that are coming out now, for 
example, cotraining with marines and things like that, that if 
they had been in the original scope, the question is of these 
70 facilities that were evaluated, which ones would or would 
not have been candidates for this requirement, FLETC being one 
of those, if that cotraining is indeed a requirement.
    The numbers as I see them finally is that the current FASTC 
estimate of first capital--and this is hard skills training 
only. This is a scope change from the original that had hard 
and soft skills training. And there is a third dimension of 
this that I want to point out and that is--and I do not know 
the right vernacular, but it is weapons training, it is blast 
training, it is assault training in a mockup embassy situation. 
You got to have access to it 24/7. In the FLETC option, that 
is, as I understand it, to be done at Townsend, requires 
original capital, and there is an ongoing operating cost for 
that as well, if that is right. So there are three things: hard 
skills, soft skills, and this weapons training and assault 
training.
    The ongoing costs--I am just going to pick a couple of 
midpoints here. You mentioned the low and the high, and this is 
in the report, so I am not trying to quibble with the numbers. 
But I am just pointing out that if you look at it over 50 
years, you got the student training costs. One facility is 
about $400 million higher than the other one. And then if you 
go to operating cost, the other one is $400 million higher than 
the other one. So over 50 years, it is kind of a wash.
    On your report, FLETC has an advantage on the operating 
cost over that period of time if you look at it over 25 years 
and so forth.
    But here is my question. What is missing at FLETC is the 
cost of the Townsend capital costs and any ongoing 
transportation costs or training costs relative to that 
additional increment that is not in their estimate today. I 
think that is correct. At FASTC, what is missing could be the 
couple years of housing and cafeteria needs until the 
commercial industry provides that, and then the ongoing cost 
differential between doing that on campus versus off campus.
    As far as I can see, if those things had been met against 
the scope, then we would be able to get to an answer. And I 
think that is what Mr. Starr has said that that study by 
Deloitte is going to provide.
    But before we get into that, the question is this. Has the 
scope at this point, as we sit here today, as Deloitte starts 
their analysis--has everybody at State agreed on what the scope 
is and what will be included?
    And let me give you a specific example. Marine training, 
cotraining, right now seems to be a very important issue in 
this exercise. And yet, we learned that there is cotraining 
going on right now in L.A. I think that was last week or 
something where marines and State Department personnel are 
doing an assault training exercise out there, which I commend. 
So the question is, has the scope and all the requirements been 
defined at this point?
    Mr. Courts. Senator, the proposal that we looked at for 
FASTC was the $413 million proposal, and our understanding is 
that that particular proposal does include the full scope of 
what State is planning, including training with the marines in 
Chesapeake and in Quantico.
    Senator Perdue. But not soft skills. Correct?
    Mr. Courts. It does not include the soft skills training. 
That was part----
    Senator Perdue. Yes. The $272 million and the $413 million 
are hard skills. At FLETC it is hard skills only, and at FASTC 
it is hard skills is what you are describing right now.
    Mr. Courts. That is correct.
    Senator Perdue. But without soft skills.
    Mr. Courts. That is correct.
    Senator Perdue. Okay.
    The other issue is, as we look at this scope right now and 
go forward, how do we determine the best way to do that? What I 
am trying to get at this, is if that is a requirement and FLETC 
cannot provide that Marine training--and I will direct this at 
Mr. Courts and Ms. Patrick--then FLETC does not meet the Marine 
cotraining requirement, if I understand how you are describing 
that. Is that correct or not? Am I oversimplifying that?
    Mr. Courts. Well, we spoke with the Marine Corps units that 
State trains with. This is primary training partners. And they 
told us that they would not be able to travel to FLETC both as 
a matter of cost and as a matter of practicality because they 
are not only transferring their personnel but also their gear 
and equipment.
    Senator Perdue. How do that in L.A.?
    Mr. Courts. I am not familiar with the L.A. exercise. I 
would have to defer to Mr. Starr on that.
    Senator Perdue. Do you know anything about that exercise, 
Mr. Starr?
    Mr. Starr. Our participation in that exercise I believe is 
leadership. It is a role-playing base. We have officers playing 
embassy officers. It is not hard skills type of training where 
we are involved in.
    Senator Perdue. Thank you.
    There is one other--I am out of time. I will come back to 
this later. I will yield the balance of my time, and we will go 
to the ranking member.
    Senator Kaine. Thank you, Mr. Chair.
    And thanks to the witnesses for your testimony, and 
especially the GAO for your work on the report.
    As I read the report and just to kind of summarize, the 
analysis really looks at these two facilities across two 
dimensions, operations and cost. And cost has an operating and 
a capital component, but let us just look at operations for a 
minute.
    You look at four operational criteria, and you conclude 
that the FASTC site meets all four and the FLETC site does not 
fully meet any of the four. Is that correct?
    Mr. Courts. That is correct.
    Senator Kaine. One of the criteria that you look at deals 
with a consolidation and the ability to use partners. 
Obviously, there is a Marine presence in many places, but the 
Marine Security Guard program is headquartered at Quantico. And 
so the proximity between that program and FASTC is important.
    Your report indicates that you reached out to the Marines, 
and they indicated that it would not be either sort of 
practically effective or cost effective for them to send 
personnel at such distance. I reached out to the Marines to get 
a letter to that effect, and I have a letter that the Marines--
Jan Durham, who is the Assistant Deputy Commander with the 
Marines, over this submitted, and I would like to submit that 
for the record, Mr. Chair.

[Editor's note.--The letter submitted for the record can be 
found in the ``Additional Material Submitted for the Record'' 
section at the end of this hearing.]

    Senator Kaine. A second operational component that I wonder 
about is the exclusive use component. You talk about the need 
at FASTC, that State would have use day, night, whenever they 
wanted it. At FLETC they would have priority use but not 
exclusive use.
    My understanding is that the State Department does some 
classified activity in connection with this training as well, 
and that that would not be more conducive in the exclusive use 
scenario rather than in the FLETC scenario. Is that correct?
    Mr. Courts. My understanding is that there are some courses 
that involve classified information with respect to certain 
threats and certain countermeasures to deal with those threats. 
I am not familiar with whether or not the FLETC could 
accommodate that versus the FASTC facility. I do believe that 
that capability is included in the plans for FASTC. I am not 
certain whether it is for FLETC.
    Senator Kaine. Ms. Patrick, do you know, does FLETC have 
the classified capacity?
    Ms. Patrick. Reflecting back to the 2013 analysis, we based 
ours strictly on the building and the master plan capacity. So 
the requirement for the secure facilities was not one that I 
was aware of. So I would have to reflect back on what was 
actually in the building and if there was a need for that. So I 
am not aware of what the need was.
    Senator Kaine. If there is, in fact, the need for 
classified activity, is FLETC currently constituted to handle 
that?
    Ms. Patrick. We have some classified capabilities, but I 
just do not know the nature of what is required.
    Senator Kaine. Thank you.
    With respect to the second aspect of the analysis, which is 
the cost side and, again, maybe breaking it into two, on the 
operational costs, you conclude that FASTC is more 
operationally cost effective largely because of the proximity 
questions than FLETC would be. Correct?
    Mr. Courts. That is correct.
    Senator Kaine. And then with respect to the capital costs--
and this is one that the chair was really digging into--there 
is a cost differential in terms of the FLETC proposal and the 
number for FASTC. I think you conclude that the FASTC proposal 
fully or substantially meets sort of three of the four cost 
criteria that you are interested in and only partially meets 
one of the four. But the FLETC cost proposal sort of only 
minimally meets the four cost criteria on the capital side. Is 
that correct?
    Mr. Courts. That is correct.
    Senator Kaine. And I think you point out that that is not 
FLETC's fault, that FLETC did not have necessarily all the 
information that would be within the State Department 
concerning the needs, the capital needs of their own 
operations. Is that correct?
    Mr. Courts. That is correct. And they only had 60 days to 
come up with their estimate.
    Senator Kaine. And finally, Director Patrick, let me just 
ask you this. Your testimony was very crisp and to the point, 
and I know you submitted your written testimony for the record 
and so it was a summary. But I just want to read two aspects of 
your testimony just to ask if you stand by this position.
    First, on page 3 of your testimony, ``FLETC fully supports 
the administration's decision to consolidate DOS's hard skills 
training at Fort Pickett, Blackstone, VA, in furtherance of 
best preparing its personnel to serve its critical overseas 
function, which has been explained in the testimony from my 
colleague from the Department of State.'' And that is your 
position today.
    Ms. Patrick. It is.
    Senator Kaine. And then on the last page of your testimony, 
again, somewhat repetitively, ``FLETC supports the 
administration's decision to consolidate State's training at 
Fort Pickett, stands ready to assist however possible, and 
looks forward to a strong continued partnership with DOS.'' And 
that is also your testimony today.
    Ms. Patrick. Yes, it is.
    Senator Kaine. Thank you.
    Thank you, Mr. Chair.
    Senator Perdue. The Senator from Georgia.
    Senator Isakson. Well, Senator Kaine, that is exactly why I 
support Connie Patrick. She shoots straight, and we are so 
proud of her in Georgia and what she has done for so many years 
at FLETC. And I appreciate her being here today and appreciate 
your acknowledging her loyalty to the country and to the 
training of our security agents.
    Secretary Starr, thank you for taking my calls. You and I 
have had numerous calls on issues regarding training in 
Georgia, and I appreciate very much your doing so.
    I want to follow up on what Senator Perdue talked about 
because this to me means everything. I have just finished as 
chairman of the Veterans Affairs Committee, finally solving the 
VA hospital problem in Aurora, CO. That is a hospital that 
started out 13 years ago as an estimate of $348 million. We 
finally came to agreement last week, and it is going to be 
$1,635,000,000. And the problem is--and I was interviewed by 
the Denver press, and they said why do you think this thing got 
so out of hand. I said it looks like a horse built by a 
committee, which is a camel. Anytime you have too many people 
changing the definition along the way, your cost can overrun.
    So the scope definition Senator Perdue asked is really 
totally important because you can craft a scope to have the 
best foot forward for what you really want to do, yet leaving 
out things for the future. Are you confident that the scope 
definitions that we are going to make our final decision upon 
will be fair comparisons both ways and not just written to 
determine where the site should go?
    Mr. Starr. Senator, thank you for the question. I think it 
really gets to the heart of what we are talking about.
    We are already training both families and Foreign Service 
officers for the foreign affairs counterthreat course, and we 
are training diplomatic security agents. And we are doing 
antiterrorism assistance training for foreign governments. And 
we are training units from foreign governments that protect our 
embassies.
    The Department made a decision to expand in one particular 
are, the FACT training, tremendously so that every Foreign 
Service officer is going to get that every 5 years now. We are 
going to try to move as many families as we can through that as 
well. After Benghazi, we made a decision that we needed to 
vastly increase the hard skills training, the high intensity 
training for our agents as well. And when we put all of this 
together, we have the curriculums. We have the courses. We have 
the hours. We know how many people we want to put through by 
year up through 2019. And we specifically designed our 
requirements around all of the people that we need to train and 
how we need to train them.
    Then with a very good partner, GSA, we went forward and 
tried to plan this for the hard skills training. GSA then went 
out and got two independent estimates from independent 
contractors on what it would really cost to build this because 
I am like you. The last thing I want to be in front of you is 
saying that this is going to cost $413 million and come back to 
you with an $800 million price tag on it.
    I think when you plan a project, you get the hard numbers 
that you need to do. You do the absolute best that you can, and 
then you do not even rely just on the people that are saying 
this is what we need. Then you go to a good partner like GSA 
that has a record of building, and then you get independent 
cost estimates.
    So when I come to you and say this is $413 million and GAO 
looks at it and says, you know, three out of the four factors 
they are right hard on and there is a fourth factor they could 
have done a little better, and GSA is going back and rectifying 
that fourth factor for GAO, we know it is going to come in at 
that cost. I like you do not like taking taxpayers' money and 
saying it is going to cost one thing and then having a much 
higher bill at the end of it. I am confident we can bring this 
in at that cost. That is my promise to you.
    Senator Isakson. Well, that is the answer I was hoping to 
hear because I have seen far too much evidence in Washington 
from time to time where we have an unrealistic scope and we get 
an authorization to go forward, and then we get a surprise at 
the end when they say, oh, by the way, we forgot. In this type 
situation, I do not think there would ever be an excuse for 
forgetting, but I want to make sure that scope is as critical 
as possible.
    Mr. Courts, thank you for the work you do at GAO.
    You got a statement on page 12 that a person responsible 
for security guard training at the Marine Corps confirmed that 
the cost at FLETC would be prohibitive. I think that is the 
statement.
    Mr. Courts. That is correct. That is what they told us.
    Senator Isakson. Did they make that analysis solely or did 
you make an analysis independent of what they said?
    Mr. Courts. We did not make an independent analysis on 
that.
    Senator Isakson. So in other words, you took that at face 
value.
    Mr. Courts. We reported what they told us.
    Senator Isakson. Connie, Director Patrick, thank you very 
much for what you do for our great State of Georgia and what 
you do for the training of our enforcement officers. This is an 
important decision for us to make, and I hope as we make the 
decision, we will be unified in our support and the result will 
be a facility that all of us can be proud of. But we are very 
proud of the training you do for the security agents of the 
United States of America around the world. Thank you.
    Senator Perdue. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    I am a novice on this issue, but it seems pretty simple to 
me that it does not get much more important than protecting our 
State Department personnel overseas. It is hard enough to get 
people to do these jobs. It becomes even harder if they think 
that we are messing around with their security. And the State 
Department, GAO, GSA, everyone wants to build this facility and 
they know where to build it. Yet, you are not able to build it, 
as you say, Secretary Starr, because of the concerns you have 
heard from Congress.
    So without getting involved in the details of the Virginia 
site and the Georgia site, which the members from Virginia and 
Georgia know much better, just maybe share with me what the 
implications for continued postponement is. What is the 
implications for the ability to have the best trained, most 
capable security officers out in the field? I know you are 
going to do as good a job as you can with your current 
resources. But so long as we are not allowing you to make the 
decision on siting that you have told us loud and clear that 
you want to make, what does that mean for our men and women on 
the ground?
    Mr. Starr. Thank you for the question, Senator.
    In its simplest terms, we are ramping up from about 3,500 
people a year for FACT training the employees of the Department 
of State. We want to get to over 6,000 per year. And then we 
want to make sure that we can get as many families in on the 
space available basis as possible. I cannot do that at the 
current facility.
    With a purpose-built facility by 2018, 2019, as we ramp 
this up, we meet the time schedule for full implementation of 
FACT training for everybody in the Department and families at 
the same time as the facility is built. At the interim 
facility, I cannot do that at the moment.
    Further, we are using 11 different sites now. We are moving 
students and instructors around continuously. We think that in 
one site, we can save over $11 million a year in training costs 
and almost double the amount of students that we train with 
that same budget. I cannot do that at the current site. I 
promise you we will strive to do absolutely the best training 
we can for our people. That is my job, making sure that our 
people have got the best training. I will do the best that I 
can with the facilities that I am given.
    But honestly, we have thought about this long and hard. The 
ability to collocate all of our training so we are not sending 
students and instructors to 11 different sites and doing things 
so that we get them there quickly and efficiently, that we keep 
them on and have training that starts in one place and goes 
directly to another without having to change location, my 
mobile security teams that are constantly out at high-threat 
embassies and coming back so I can get them quickly requalified 
on heavy weapons and get them back into the field, this is what 
Fort Pickett gives me.
    The ability to train with the Marine security augmentation 
units, that is another 1,000 marines that were given to the--
the Marine Corps gave us essentially for embassy security on 
top of the Marine Security Guard program that is 1,700 marines 
at this point. We have got another 1,000 that we use. And we 
have already deployed over 50 times in the last 5 years for 
higher-threat situations. So training with them literally 50 
miles away continually--because they do not stay for long. 
Those units rotate through all the time. We have to have a cost 
and training schedule with them. That is what Fort Pickett 
gives us.
    Senator Murphy. So when you say that you cannot meet your 
anticipated volume, 6,000, with current facilities, what does 
that mean? When do we get to a breaking point here in which we 
are really jeopardizing your plan for the safety of our men and 
women overseas?
    Mr. Starr. I would prefer to have stuck shovels in the 
ground right now, and that was the plan so that by 2018, when 
we ramped fully up to everybody, we were set. With our 
temporary pause, we hope to be less than 3 or 4 months behind 
on this and hope to still meet that schedule.
    Senator Murphy. And just lastly, as I was reading through 
GAO's report--and I will just ask you, Secretary Starr--this 
issue over having full use or partial use of the facility. Just 
help me explain why that is important.
    Mr. Starr. FLETC is a great training partner, sir. But our 
needs for our students--you know, Connie can promise us a lot 
of priority on things, but that also means when we take 
priority, somebody else gets bumped as well. And there is 
Federal law enforcement training that has to go on as well. So 
we believe that having a dedicated facility that is based on 
our needs for 9,000 to 10,000 people a year--Connie is already 
training 22,000 Federal law enforcement officers a year and 
other courses down there. The dedicated capability to do it in 
one place without having to bump others is important. The 
ability to have it close to where we are helps us. These are 
the types of things that a dedicated facility does.
    And I will add one more thing. We are not sure that 
Townsend Bombing Range can even be used for the things that 
we--we do not have a land use agreement with them. We do not 
have an agreement with the Marine Corps. We do not have any 
guarantees that that can be used. Now, it is possible that they 
could be used, but that is going to take years to figure out.
    Senator Murphy. Well, thank you to all of you. It is an 
impressive report, Mr. Courts. Thank you, Ms. Patrick for the 
amazing work that you do. Nobody has got a harder job than you 
do, Mr. Starr.
    So thank you very much, Mr. Chairman. I appreciate the 
time.
    Senator Perdue. Thank you.
    Mr. Secretary, I have just got a couple additional 
questions both on the efficacy of the estimates that we have--
but first, you just mentioned something. I have been a little 
confused about this consolidation. I get it. Everything you 
just said makes sense to me.
    Can you speak to the soft skills training where I think the 
current strategy is the hard skills training is going to be in 
a consolidated manner so you have this assault training and 
weapons training that might be met at Townsend potentially? But 
in this case, it would be on site at FASTC. We have already 
violated the consolidation theory, I would guess, unless there 
is something I am missing here relatively to soft skills 
training. Can you speak to why it is acceptable? The current 
model is going to be hard skills training in one location and 
soft skills, I guess, would be at the eight facilities that are 
available to today. Is that correct?
    Mr. Starr. Yes, sir. Our soft skills training, much of 
which at the--some of which is done at FSI and much of which is 
done in conjunction with FSI--we do a lot of training right at 
the Arlington campus here. We also have soft skills training on 
engineering and computer security. We have soft skills training 
on counterintelligence and investigations, advanced type of 
training courses.
    In a perfect world, would I love to have everything 
collocated? Absolutely.
    Senator Perdue. That was the original scope before you got 
involved.
    Mr. Starr. Honestly, sir, I left as the Director of 
Diplomatic Security in 2009, and my emphasis was on a hard 
skills training center. Hard skills. I spent nearly 3\1/2\--a 
little more than 3\1/2\ years at the United Nations, and when I 
came back after Benghazi, I saw that the scope had generally 
been increased because I think people honestly wanted to look 
at did it make sense to combine both soft and hard skills into 
the same center. In a perfect world, that is probably what you 
would want to do. The cost of that was just too much to bear.
    And we are already located in northern Virginia for our 
soft skills training. It is close to the Department of State. 
It is close to FSI already. We have the space and the 
facilities. Some of it is leased. Some of it is at FSI, which 
is owned. And really the one thing that we cannot do is the 
hard skills training, and that is why we decided, okay, we need 
to consolidate and concentrate on consolidating that.
    Sir, in a perfect world, I would love to have one place 
that I could do it all. But there are cost constraints. We 
believe that Fort Pickett gives us the best answer for the hard 
skills training and we will continue to do the soft skills 
training in this immediate area.
    Senator Perdue. Were you a little surprised that the 
estimate came back that much different just by taking soft 
skills training out? It went from $900 million to $400 million, 
cut in half. I would think the hard skills training would be 
much more expensive from a capital planning perspective. Were 
you a little surprised with that differential?
    Mr. Starr. Surprised perhaps a little, sir. The soft skills 
side of the original master plan contained many, many more 
buildings, actual buildings that had to be built, and 
therefore, also a greater amount of land. And I think when you 
take those buildings that had to be built off of it for 
classroom spaces and things like that, it changed the dynamic 
considerably.
    Senator Perdue. Director Patrick, would you respond to a 
couple things? I had a question going to the report. This may 
be a detail question, but I would like to understand. I do not 
know whether it is your estimate or whether GAO did it as a 
percentage or whatever. But the 370 additional staff that would 
be needed to train--do you agree with that? And if not, what 
would be required there, and in the GAO report, how should it 
be amended to get the right number? That is question one.
    Question two. I would like to come back and ask the 
question about Marine cotraining and also Townsend.
    So if you do not mind, talk about personnel quickly, if you 
will.
    Ms. Patrick. I believe the number of personnel were a State 
Department number, and I think we must have stipulated that it 
was the same number or to be used for both facilities because--
--
    Senator Perdue. Was that a percentage of--was that done as 
a percentage of total cost, or was that built up from the 
bottom up in terms of--Mr. Courts, you--or I do not know who 
came up with that estimate.
    Mr. Courts. I do not believe that was a percentage. I 
believe that was the number that had actually been compiled by 
looking at the number of courses and the number of instructors 
required.
    Senator Perdue. Can you speak then to the Townsend Bombing 
Range? It gives 24/7 but it is 30 miles away, et cetera. Can 
you speak to the potential limitations that that might bring? 
And also, could you train using that facility at the level that 
would be minimally required?
    Ms. Patrick. Well, the Townsend Bomb Range is a very large 
parkland owned by the Marine Corps. And the part of the 
property that we were considering is about a 5,000-acre plot 
that is currently being used to do long-range firearms 
training. We currently use that right now to do that type of 
training. We are in the process of signing an MOU with the 
Marine Corps to use that property for continued training to 
benefit not only FLETC students but also the Georgia Air 
National Guard--or the Georgia National Guard.
    Senator Perdue. Have you been contacted by Deloitte yet?
    Ms. Patrick. We did get a phone call. The CFO was 
contacted. And I think we have a date that they will be 
visiting our site.
    Senator Perdue. Mr. Courts, have you met with Deloitte yet?
    Mr. Courts. We have not.
    Senator Perdue. Do you anticipate working with them?
    Mr. Courts. We have not gotten any notification or 
communication from them to date.
    Senator Perdue. Mr. Secretary, I think it is 12/15, 
December 15, is the due date for that report. Is that right?
    Mr. Starr. Yes, sir.
    Senator Perdue. Do you have any update, interim report from 
them on the progress of that study?
    Mr. Starr. We have had several meetings with them already. 
We have the agreed-upon scope. We are making sure that it, 
hopefully, meets everything that Congress wants on it, and it 
is going forward. We know that they have the staff on board 
already and are commencing the survey.
    Senator Perdue. So specifically, if we all agree on what 
the scope is and that scope requires--I keep coming back to 
this because I keep hearing the scope change over the last 5 
years dramatically, hard/soft together, then hard/soft 
separate, and now Marine cotraining is a prerequisite. You 
know, from a perspective of trying to evaluate these moving 
numbers, we talked with the GAO a few weeks ago about how hard 
it has been to estimate that.
    But if that is a constraint that has to be met and FLETC 
cannot meet it, then what has Deloitte been hired to do?
    Mr. Starr. I think the cost-benefit analysis is what--an 
independent cost-benefit analysis as opposed to what I think is 
a very thorough look that GAO has done and our own requirements 
on it.
    But, sir, you are coming back to the question of the 
Marines. The Marines are less a question about cost than they 
are about whether or not we can actually collocate----
    Senator Perdue. Well, that is what is I am saying. If you 
prequalify a site and that site cannot be supported by the 
Marines, then it is not a viable option. Is that correct?
    Mr. Starr. Well, that is pretty much what we have been 
saying all along, that we have concerns that FLETC and the 
Townsend Bombing Range are not viable for our training.
    Senator Perdue. But I keep coming back to they are doing 
that today in other locations, and I am confused as to how they 
could be executing that today and say going forward they cannot 
do that.
    Mr. Starr. We are currently borrowing space at Fort A.P. 
Hill where we have our capstone exercises. We are doing a lot 
of our night training at A.P. Hill where we have Marine units 
come in and work with us. We have to go down to Quantico and 
work with them on their site, and we use their long-range 
ranges there. We are sort of making do with places as we can 
get space and as we can get time and rearranging the ability to 
do these things. Again, it goes to the question that 
collocating in one place gives us efficiencies that we believe 
will cut costs and allow us to increase the number of 
throughput for training that we just currently do not have as 
we sort of hot bunk it from place to place.
    Senator Perdue. But those cost savings should show up in 
whatever cost-benefit analysis finally is done----
    Mr. Starr. Yes, sir.
    Senator Perdue [continuing]. And in the analysis that GAO 
did.
    Director, do you have any response to the training? Do you 
cotrain with marines now for any of the other forces that you 
train?
    Ms. Patrick. On occasion from King's Bay and we have had--
--
    Senator Perdue. Are there other training facilities inside 
Homeland Security where that training--I think it was at 
Moletsy in L.A. I may have that name wrong.
    Ms. Patrick. We have a joint training center in L.A. at the 
L.A. ports where we train maritime boat training. And there is 
an exercise that is being conducted there that involves the 
State Department and the Marines from Camp Pendleton.
    Senator Perdue. Thank you.
    I have one more question, but I am going to defer to the 
ranking member.
    Senator Kaine. Let me focus a little bit on this Marine 
issue while we are on it. I know the Marines are good partners. 
They are on the Townsend range. But do you currently have 
significant ongoing training in tandem with the Marine Security 
Guard program that is run out of Quantico?
    Ms. Patrick. No, sir.
    Senator Kaine. That is the issue. The Marines have all 
these different units, but the Marine Security Guard program, 
which was bulked up by 1,000 additional marines in the 
aftermath of the Accountability Review Board, is at Quantico.
    And, Secretary Starr, you were talking about the fact that 
until you get the site, you are using other sites like A.P. 
Hill. A.P. Hill is 20 miles from Quantico. You use Quantico 
because the Marine Security Guard program is right there. While 
you use other sites, my understanding is, you are trying to use 
sites that are as close to that Marine Security Guard unit as 
you can.
    Mr. Starr. Yes, sir. That is what allows the marines to 
participate with us. If it was too much further away, they just 
could not do the joint training with us.
    Senator Kaine. Am I right that before the State Department 
and GSA chose Fort Pickett ultimately, they looked at about 70 
different sites prior to landing on Fort Pickett. Is that 
correct?
    Mr. Starr. That is correct, sir.
    Senator Kaine. And it was the strong preference from the 
very first days of this search that the site chosen would be 
one that would be proximate to D.C. because of the proximity to 
FSI, main State, and the Marine Security Guard program.
    Mr. Starr. Yes, sir.
    Senator Kaine. In terms of the timing going forward, am I 
right that at FASTC, an EIS has been completed that would 
enable--you do not have to do that in order to get into the 
construction side of things. Is that correct?
    Mr. Starr. Correct, sir. All of the planning, all of the 
permits, including the environmental impact statements, have 
all been done. We were prepared to break ground.
    Senator Kaine. And then finally, a little bit about 
Townsend. I have not been to Brunswick, so I am kind of 
operating at a deficit. I lived in Macon for a year, which I 
loved, but I did not go to Brunswick when I was there. But I 
want to make sure I understand the scenario.
    So FLETC's proximity to Brunswick, which is a major 
community, has led either by rule or just by courtesy to some 
curtailment of 24-hour operations, just to try to fit in with 
the community. Is that fair to say, Director Patrick?
    Ms. Patrick. Yes. There is no noise ordinance that 
prohibits us from training, but it is a good neighbor policy 
established by FLETC and a reasonable time--10 p.m. is when we 
generally cease training exercises.
    Senator Kaine. So if the idea is that State has is to do 
nighttime operations that would involve simulated nighttime 
attacks or things, that could be done at Townsend. But would 
you have to do any construction of embassy-like buildings or 
infrastructure at Townsend to do that? I gather that is part of 
the FASTC hard plan that has been put together to have 
buildings that could be used for these 24-hour operations. 
Would you need to do construction at Townsend if you were going 
to have those kind of nighttime explosive operations there?
    Ms. Patrick. What we would need to do is we would revisit 
their expectations because our plan and our proposal and what 
we presented to OMB in 2013 was the master plan. And so in 
terms of what needs to be where, would have to be reassessed 
because at the time we did not know about the capstone 
exercise. That was something we learned within the last year. 
And so, again, we would have to go back and find out from our 
customer exactly what their needs are and where they would be 
best fitted.
    Senator Kaine. Thank you. And thank you to all the 
witnesses for your testimony today.
    Thanks, Mr. Chair.
    Senator Perdue. Thank you.
    I just have one last, moving off the specific challenge we 
have right now of deciding what is best for the objectives we 
have. I want to reach into a little bigger issue that affects 
this analysis. I think you just said, Director Patrick, that 
you still do not have all the requirements necessary for a 
response to what I would call in the business world an RFP, 
request for proposal. Sitting here today, you do not have that. 
Is that correct?
    Ms. Patrick. Partially because--the answer is no, but it is 
because the decision, once it was made by the administration--
we did not require any additional information.
    Senator Perdue. Okay. That is fair.
    I would like to talk about, though, the flow of 
information. I have already had my say about scope, and I think 
we all agree with that. We have somewhat inherited the changing 
nature of the scope. A lot of this may have been eliminated. A 
lot of time has been spent making estimates, and we are 
spending a lot of money with Deloitte. And I applaud that, by 
the way.
    But I would like to put in the record--and I think you have 
seen this, Mr. Secretary. It is a letter from Chairman Royce in 
the House Foreign Affairs Committee. He wrote a letter 
yesterday to Secretary Kerry. He noted that in 2014, the State 
Department sought to prevent FLETC personnel from communicating 
with Congress. And I would like to give you a chance for the 
record to respond to that. Are you aware of that? Have you see 
that?

[Editor's note.--The letter submitted for the record can be 
found in the ``Additional Material Submitted for the Record'' 
section at the end of this hearing.]

    Mr. Starr. I just received a copy of that letter right 
before I came here. I did not see that sentence in there, sir. 
But we have never tried to prevent FLETC from communicating 
with either OMB or Congress. We have been up here a lot, and we 
have had a lot of communications. And quite frankly, no, the 
State Department has never tried to keep FLETC from talking.
    Senator Perdue. And then there is one other issue I think I 
just want to clear up for the record because I think, going 
forward, this is not the last time we will spend large money in 
support of State Department efforts. But I think Deputy 
Secretary Heather Higginbottom in March, I think, of last year 
in an email expressed annoyance with their contact with the 
Appropriations Committee. She wrote to Resource Management OMB 
Director Steve Koziak: ``The approach staffers had that DHS has 
been blanketing the Hill with DHS's position that DS, 
Diplomatic Security, should be utilizing FLETC, I am planning 
to call DHS Deputy Director Ali Majorcas on this. It is clearly 
out of bounds.''
    I know you cannot take these out of context and it is not 
your quote. But I want to just be sure for the record that that 
is not indicative of the attitude that we have. I have met with 
the Secretary. I have a lot of respect for her. This sounds out 
of character to me. But I just want to make sure, going 
forward, that this is not representative.
    Mr. Starr. It is difficult for me to comment on, Senator, 
but I can tell you that I know Heather Higginbottom, and I 
think the only thing she would ever ask for is a fair and level 
playing field. There was no attempt to muzzle anybody. I think 
that Heather probably just wants to make sure that everybody is 
getting all the same information at the same time.
    Senator Perdue. Director, did anybody in DHS ever give you 
instruction to not talk to the Hill?
    Ms. Patrick. No. No one gave me any instruction not to.
    Senator Perdue. Good. Thank you.
    And one last question. Mr. Secretary, I know that we put 
the construction on halt at Fort Pickett, and I think there is 
a penalty. What is the penalty per day that we are paying on 
that? Do you know?
    Mr. Starr. If we can restart by January or February, the 
penalties will be less than 1 percent of the cost of the 
contract, 1 percent of the overall cost of the project, less 
than $3 million. But if it continues, if we move this further 
on, those costs are going to rise.
    Senator Perdue. It is about $10,000 a day. Is it not?
    Mr. Starr. Sir, I just do not know the daily cost, sir, but 
the estimate through January or February is about $3 million.
    Senator Perdue. Well, very good.
    I want to thank the witnesses and the ranking member. I 
think you can see from the questioning today the objectivity 
here. We are all trying to get to the right answer, whatever 
our responsibility is. And I think we all agree that the 
overriding requirement here is to get our people trained to 
make them as safe as we possibly can and to use our assets as 
best we can. And that is my only ask as we go forward looking 
at this Deloitte study.
    There are some prohibitive costs, by the way. I mean, you 
just said, Mr. Secretary, we would love to have hard and soft 
together. It is prohibitive from a cost standpoint. Therefore, 
we cannot do it. We will adapt.
    There is a cost with the Marines, by the way, in terms of 
their travel and so forth.
    So it really is a matter of looking at this thing 
objectively. With the mission statement of training our people 
and the constraint of making sure we spend every dime 
appropriately.
    With that, I thank our witnesses again for your career of 
service and for your testimony today.
    With that, we stand adjourned. Thank you.
    [Whereupon, at 3:40 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Written Statement of Earl L. ``Buddy'' Carter, Member of Congress, 
      First District of Georgia, Submitted by Senator David Perdue

    Chairman Perdue, Ranking Member Kaine, and members of the 
committee, thank you for the invitation to offer this Statement for the 
Record and for holding this important hearing. The attempted 
construction of a Foreign Affairs Security Training Center (FASTC) at 
Fort Pickett in Blackstone, Virginia, to conduct Diplomatic Security 
(DS) training is the perfect example of bureaucracy run amok. In this 
instance, the State Department has attempted an end run around 
congressional oversight in order to jam the American taxpayer with a 
wasteful and duplicative project.
    At every turn, the State Department has been openly hostile to 
efforts of interagency cooperation. In reports from both the Office of 
Management and Budget (OMB) and the Government Accountability Office 
(GAO), State is repeatedly admonished for its failure to cooperate with 
the Department of Homeland Security (DHS) to provide an accurate 
assessment of the cost of meeting its needs. As such, Congress and the 
American people have been denied a true and transparent ``apples to 
apples'' comparison between constructing a duplicative facility at 
FASTC and accommodating the State Department's needs by expanding the 
high quality training being conducted at the Federal Law Enforcement 
Training Center (FLETC) at Glynco, Georgia.
    To what end is this stonewalling? It has certainly not expedited 
bringing this vital training on board. On the contrary, it has delayed 
the process as the State Department remains insistent on building its 
own facility regardless of the cost to taxpayers. As one Office of 
Management and Budget (OMB) official explained in an interview to the 
House Committee on Foreign Affairs, his office came to believe the 
State Department would prevail not because of new substantive analysis 
or discussion but because of persistence. This is not how the people's 
business should be done.
    Ensuring American outposts abroad and the diplomats that staff them 
are fully trained to protect themselves is of vital importance. That is 
why this Congress has fully funded the administration's request for 
embassy security funding. It is incumbent on us all, however, to use 
limited taxpayer resources in the most efficient and effective manner 
possible.
    Having reviewed reports from OMB and GAO, several meeting with 
officials who conducted the analysis, as well as repeated questioning 
of Assistant Secretary of State Gary Starr, I remain unconvinced that 
the construction of a FASTC located at Ft. Pickett is the best use of 
taxpayer funds. While neither report can be considered complete, they 
offer several issues that should be addressed.
    First, GAO reports in their analysis that the State Department has 
been working on cost estimates and course requirements since 2008 while 
FLETC had only 60 days to conduct an assessment on how they could 
accommodate training requirements laid out by the State Department. To 
ask any federal agency to conduct an assessment on such a large scope 
in such a short amount of time is completely unreasonable. The process 
effectively gave FLETC one day to complete an analysis which would be 
held to the same standard as one completed over the course of 5 weeks. 
Compounding this inequity, the GAO report found that the State 
Department withheld information regarding course requirements and 
certain training necessities from FLETC during those 60 days. I 
strongly urge the subcommittee to address how FLETC could provide an 
accurate and comparable assessment under the time constraint. In 
addition, what benefit did the State Department believe its deliberate 
failure to withhold information would have to bringing the training 
online?
    Second, the GAO report's finding that, over a period of 19-60 
years, conducting training at FLETC could become more costly overtime 
is based on data it judged to be inadequate. It also relies on the 
State Department's blatant disregard for the intent of Congress by 
obligating some $71 million in locating, approving, and beginning 
construction at Fort Pickett. As such, it takes into consideration the 
$10,000 per day fine the State Department is incurring as a result of 
prematurely entering a construction contract before receiving 
congressional approval for a project of this magnitude. The State 
Department is being rewarded for attempting to get construction at Fort 
Pickett so far down the road that it's too late to turn around as 
Congress and the American people can work to stop the egregious waste 
of taxpayer dollars. I encourage the subcommittee to examine the 
questionable legal authority the State Department used to begin 
construction and the budgetary implications of these actions.
    Moreover, the GAO's finding on cost ignores the likely prospect of 
the State Department seeking additional funds in the future. As I am 
sure the subcommittee is well aware, the State Department's cost 
estimates have fluctuated widely. From an initial proposal of $950 
million to a secondary $907 million, then to $461 million and most 
recently $413 million, these projections must be approached with 
caution. The reduced costs are largely a factor of eliminating life 
support services and narrowing of the training offered. In contrast, 
FLETC has proposed to expand its existing high quality facilities to 
accommodate the full scope of State's initial proposal at a cost of 
$272 million. I hope the subcommittee today will examine the reduced 
capabilities of the most recent proposal by state and the likelihood, 
especially given State's repeated mismanagement of construction 
projects, for the Department to return to Congress for additional 
funding in the future.
    By its own admission the GAO report is fundamentally flawed because 
it, ``did not assess whether the training elements identified by 
[Diplomatic Security] were necessary for OS to accomplish its 
mission.'' Rather, it chose to accept State's requirements and build 
them in to its baseline assumptions in evaluating the two options. This 
is a critical failure in the report as there has been varying reports 
from State itself on what would meet the needs of this important 
training. I encourage the subcommittee to examine this failure and 
whether the identified requirements are sufficient.
    I also urge the subcommittee to review reports of inappropriate 
actions taken by the State Department. Interviews conducted by the 
House Foreign Affairs Committee have uncovered a systematic effort by 
State to suppress OMB's report which found, ``FLETC can meet the vast 
majority of State's current requirements for access to facilities and 
course scheduling, training requirements, and life support services, 
all at a much lower cost.'' As I referenced earlier, the committee 
found that OMB officials were persuaded to drop their objections to 
constructing a duplicative facility at Fort Pickett not because of new 
reports or analysis but as a result of a February 3, 2014, meeting with 
State Department officials. It is unclear what was said during this 
meeting but, according to OMB Resource Management Office Director Steve 
Kosiak, it was not the result of any new substantive analysis or 
discussion. I find it difficult to understand how FLETC was capable of 
providing the necessary resources while a facility is being built at 
Ft. Pickett but not after State embarked on construction.
    I am also deeply troubled by actions taken by Deputy Secretary 
Higginbottom to prevent FLETC personnel from communicating with 
Congress. In an email dated March 7, 2014, Deputy Secretary 
Higginbottom stated to Director Kosiak that she was ``annoyed'' with 
FLETC personnel and she would call the Department of Homeland Security 
Deputy Secretary Mayorkas because these actions were ``clearly out of 
bounds.'' This appears to be an effort to deny Congress the ability to 
conduct oversight and ignoring the mandate of every public official to 
be good stewards of taxpayer dollars.
    Overall, my biggest concern is with the blatant disregard for the 
taxpayer funds and the correct process. The State Department's actions 
represent a ``Washington knows best'' mentality that has been rejected 
by the American people but is all too prevalent in the bureaucracy. 
Perhaps this is why the 10 richest counties in the country are located 
in the vicinity of this city.
    I want to again thank Chairman Perdue, Ranking Member Kaine, and 
the members of this subcommittee for holding this hearing today. I 
believe this is a perfect opportunity to show the American people that 
we are listening and that we, too, are fed up with the out-of-control 
spending and the Washington bureaucracy ignoring the will of the 
people. I believe this is a chance for us, as Members of Congress, to 
rein in the bureaucracy and show how the people's business should be 
done.

                                  Earl L. ``Buddy'' Carter,
                     Member of Congress, First District of Georgia.
                                 ______
                                 

  Responses of Gregory Starr to Questions Submitted by Senator David 
            Perdue on Behalf of Representative Buddy Carter

    Question. Assistant Secretary Starr, in response to a question 
regarding communication between Secretary Higginbottom and Director 
Kosiack, you stated that the State Department has not taken any action 
in deterring Department of Homeland Security employees from 
communicating with congressional staff. Could you explain how you are 
aware of all the communications between Secretary Higginbottom and 
Secretary Mayorkas?

    Answer. I am not aware of all communications between Deputy 
Secretary Higginbottom and Deputy Secretary Mayorkas. I am confident 
that there has not been any attempt to deter anyone from communicating 
with Congress in the FASTC deliberations.

    Question. Assistant Secretary Starr, on February 3, 2014, you 
attended a meeting with Secretary Higginbottom, Under Secretary 
Kennedy, and Director Kosiak. The purpose of this hearing was to 
discuss the appeal that the State Department had filed regarding OMB's 
decision to choose FLETC as the preferred site for DS training. After 
the meeting, OMB reversed their decision. Can you explain what was 
discussed in that February 3rd meeting? Was there in analysis or study 
done after that meeting to provide substance to OMB's reversal?

    Answer. The Department of State appealed OMB's decision based on 
several criteria, which were all later validated by the Government 
Accountability Office (GAO) report GAO-15-808R, ``Diplomatic Security: 
Options for Locating a Consolidated Training Facility.''
    OMB's fundamental concern was that the need to expand Foreign 
Affairs Counter Threat (FACT) training be met as soon as possible. The 
Department responded that moving FACT training to FLETC would only be a 
short-term solution at the cost of producing long-term, enduring 
problems. This was based on an examination of the travel costs 
associated with moving over 9,000 students per year to and from FLETC. 
The GAO later validated this study, stating that travel to Georgia 
instead of Fort Pickett would cost an additional $101 million to $166 
million every 10 years. We have certified FLETC to provide FACT 
training and anticipate organizations, like the Centers for Disease 
Control and Prevention, located closer to FLETC could utilize the 
facility for FACT training.
    OMB also suggested that FLETC could meet most of DS' training 
requirements. The Department expressed concern that FLETC could not 
meet all of the Department's training requirements and suggested that 
building a facility that could not meet all of our training needs was a 
misuse of taxpayers' money. The GAO report supported this point, 
finding that FLETC did not fully meet any of the Department's four 
critical requirements for FASTC while the Fort Pickett option met all 
four.
    OMB had been concerned that the cost of FASTC at Fort Pickett could 
increase over time, particularly if the Department chose to construct 
additional new facilities, such as dormitories and a cafeteria, if the 
private sector did not mobilize resources to meet temporary housing and 
food service needs based on the demand created by FASTC. The Department 
disagreed with this, citing that the cost estimate for the Fort Pickett 
option had been independently verified by two engineering firms, while 
FLETC's numbers were not. The GAO report agreed with this as well, 
stating that the FASTC project had ``substantially met'' best practices 
for construction estimates in three out of four categories while 
FLETC's proposal had ``substantially met'' none.

    Question. Assistant Secretary Starr, as you have stated many times, 
the State Department has invested over $70 million preparing for 
construction at the Ft. Pickett site. Can you explain the authority 
that the State Department has to spend this money on preparation for 
construction without congressional approval for such construction? What 
fund was this withdrawn from to fund these actions? What legal 
authority did State use to use these funds for preparation of the Ft. 
Pickett site?

    Answer. The American Recovery and Reinvestment Act (ARRA), P.L. 
111-5, included Diplomatic and Consular Programs (D&CP) appropriations 
for the express purpose of funding ``urgent domestic facilities 
requirements for passport and training functions.'' The Joint 
Explanatory Statement accompanying ARRA specified that D&CP 
appropriations were provided ``to continue design and begin 
construction of a consolidated security training facility,'' among 
other purposes. In addition to obligating D&CP appropriations under 
ARRA, the Department also obligated prior year D&CP appropriations for 
``Worldwide Security Protection.'' Congress was notified of funding 
provided for the Foreign Affairs Security Training Center (FASTC) via 
Congressional Notifications in 2009.
    In addition, since 2009, we have regularly briefed our committees 
of jurisdiction on the FASTC project.

    Question. Assistant Secretary Starr, according to interviews done 
by the Foreign Affairs Committee, a compromise was made where the State 
Department would conduct training at FLETC until the Ft. Pickett site 
was built. Can you explain to me how FLETC would be able to conduct 
training while construction of the Ft. Pickett site is being completed 
but not after the site was completed?

    Answer. The compromise in question refers only to the provision of 
the Foreign Affairs Counter Threat (FACT) course for excess demand that 
cannot be met using existing hard skills facilities. The Department is 
moving toward a worldwide expansion of FACT training whereby the vast 
majority of U.S. Government personnel serving under chief of mission 
authority will require FACT training before deploying overseas and will 
need to repeat this training every 5 years.
    The Department estimates that it will need to train approximately 
6,500 FACT students per year by FY 2018. The Department will not be 
able to meet the full 6,500 student per year requirement using its 
current leased facilities. The long-term solution is to train all 6,500 
FACT students at the Foreign Affairs Security Training Center (FASTC) 
at Fort Pickett. As the Department ramps up this training, the Bureau 
of Diplomatic Security (DS) has sufficient training capacity to meet 
current demand. If the Department reaches a point where demand exceeds 
capacity, it has reached a compromise agreement with the Department of 
Homeland Security (DHS) and the Office of Management and Budget (OMB) 
to use the Federal Law Enforcement Training Center in Glynco, Georgia 
(FLETC-Glynco) as the primary overflow site.
    DS officials have been working with officials at FLETC to prepare 
them to begin providing the FACT course. FLETC is currently certified 
to offer this course. The FACT course is one of the most basic courses 
in the DS hard skills inventory. Like DHS, several other agencies have 
been certified to offer the FACT-equivalency courses, including the 
FBI. Since FLETC is certified to provide the FACT course, it can 
provide FACT to Customs and Border Patrol, Immigration and Customs 
Enforcement, and other DHS divisions that would benefit from such 
training. Also, foreign affairs agencies that are closer to Glynco, 
such as Centers for Disease Control in Atlanta, may avail themselves of 
the Glynco location.

    Question. Assistant Secretary Starr, you continue to mention the 
penalties that are being placed on delaying construction at Ft. 
Pickett. Wouldn't it have been easier to obtain congressional approval 
before entering into a contract for construction? Couldn't someone say 
that the consequences of $10,000 a day is the fault of the State 
Department trying to get to far down the road and force Congress' hand 
to fund a project that fiscally irresponsible?

    Answer. In a best-case scenario, wherein construction begins by 
February 2016, GSA estimates that there will be an increase of $3.1 
million in project costs. These costs are not ``penalties,'' rather 
they are the result of cost escalations over time for labor and 
materials. Should our timeline slip further, additional cost 
escalations are likely and would further increase the total cost for 
the project.
    The Department and GSA conducted an extensive site selection 
process, reviewing over 70 sites before selecting Fort Pickett as the 
preferred site for the Foreign Affairs Security Training Center 
(FASTC). The administration reaffirmed the Department's selection of 
Fort Pickett in April 2014. Although not publically released until 
September 2015, the Government Accountability Office (GAO) determined 
in May 2015 that the Fort Pickett alternative is the only site that 
fully supports the FASTC functional requirements and is fiscally the 
best course of action. Based on the cumulative results of multiple 
reviews, and to avoid further delays, the Department determined that 
moving forward with construction at Fort Pickett was a logical course 
of action. That said, the Department is sensitive to the concerns 
voiced by Congress and opted to place on hold construction efforts 
until an additional level of due diligence can be completed as 
requested in late July 2015.

    Question. Assistant Secretary Starr, since there is evidence to 
suggest that the State Department is great at brokering deals and you 
continue to stress the importance of working with the Marine Corps for 
training, couldn't the State Department contract with the Marine Corps 
to use their resources like flights and vehicles? As you have stated 
several time, synergy between the two groups is very important.

    Answer. The Department has spoken to representatives of the U.S. 
Marine Corps units with which it currently trains regarding the issue 
of possibly conducting training in Georgia. As stated in the GAO 
report, Marine Corps representatives have stated that supporting such 
training in Georgia would be cost prohibitive.

    Question. Assistant Secretary Starr, you mentioned that a third 
party, Deloitte, had been contracted to conduct an assessment and they 
had contacted the CFO of FLETC to set up a time to conduct this study. 
This study is support to be presented by December 2014. Can you tell me 
if 6 weeks is enough time to conduct this study in a fashion that will 
provide a truly reliable cost assessment? If so, how can a cost 
analysis in 45 days be more reliable than a cost analysis conduct in 60 
days, like the one done earlier this year?

    Answer. The period of performance for the Cost Benefit Analysis 
(CBA) is 75 days; however, in advance of that time period, the General 
Services Administration (GSA) and the Department gathered all of the 
data information available, compiled since 2009, so that Deloitte could 
assess how much new information needed to be developed and determine 
which data already existed as well as the validity of that data. 
Deloitte has multiple teams deployed simultaneously to execute the CBA 
so that the cost model is being developed in parallel with data 
gathering and validation. The estimating process itself will not take 
more than 30 days and will include sensitivity analysis to account for 
anticipated risk based on the varying level of information that exists 
with each alternative being analyzed.

    Question. Assistant Secretary Starr, in reports by the OMB and GAO, 
State was admonished for not fully cooperating with FLETC in its 
efforts to provide a thorough and accurate cost projection. 
Specifically, State did not provide comprehensive course requirements 
and training necessities. In what way was this lack of cooperation 
productive in the effort to bring this training online as quickly as 
possible?

    Answer. In February 2013, the Department decided to reduce the 
scope of FASTC to hard skills only training, and the Department 
provided to FLETC all of the training and facility requirements for the 
reduced scope, hard-skills only FASTC program. In April 2013, the 
Department provided FLETC and OMB with an informational package on the 
proposed FASTC. Included in this package was a compilation of documents 
that provided detailed descriptions of the Department's training 
mission, and facility and training venue requirements. This package 
included detailed hard-skills course descriptions, venue requirements 
in terms of required acreage and square footages, a narrative 
description of the proposed use for each hard-skills venue, class 
sizes, and frequency of classes. The package was accompanied by a cover 
memo, which I signed, that provided a detailed description of each 
specific document and emphasized the hard skills components of the 
Department's training program that compose the reduced scope FASTC 
program. This is the same information that the Department had to 
develop its reduced scope project. Further documents, such as a reduced 
scope master plan, had not been developed at the time of the due 
diligence process. In order to be good stewards of taxpayer dollars, 
the Department could not spend money on developing a formal reduced 
scope master plan until the administration affirmed that Fort Pickett 
was the best location for the Department of State's hard skills 
training facility.
    In September 2013, the Department provided to FLETC the reduced 
cost estimate for the reduced scope FASTC, a 71-page, line-by-line 
itemized list that describes each component for all hard-skills venues 
to include related site work and infrastructure requirements. 
Additionally, the reduced scope program was a primary point of 
discussion during the Department and OMB's site visit to FLETC on 
September 4, 2013, and served as the basis of the consensus document 
developed by the Department and FLETC. Since early 2013, the Department 
has worked diligently with OMB and FLETC to provide the requested 
information and facilitate OMB's analysis.

    Question. Assistant Secretary Starr, in your testimony before the 
committee you indicated that soft skills training would be colocated 
with hard skills training, ``in a perfect world.'' What assurances can 
you give the committee that State will not return to Congress to seek 
additional appropriations to build out life support services and soft 
skills training capabilities in the future?

    Answer. The Department explored the option of consolidating both 
hard and soft skills training functions at a single location and 
determined that the cost was fiscally unachievable. Given the overseas 
environments in which we operate, the Department's hard skills 
requirements must be a training priority, which is why we have pursued 
a hard skills only consolidation plan. There is no need for soft skills 
training capabilities at Fort Pickett because we meet those 
requirements in a cost effective manner in the Washington, DC, area. 
The Department is also confident that the local economy can provide 
life support infrastructure that is cost effective for the government 
and economically advantageous to the region.
                                 ______
                                 

               Responses of Michael Courts to Questions 
                   Submitted by Senator David Perdue

    Question 1. Based on your understanding of government construction 
projects, aren't cost benefit analyses usually mandatory before 
purchasing land and starting into a contract? How about an RFP?

    Answer. The two objectives of our September 2015 report were to 
examine (1) key site requirements critical to providing DS training and 
the extent to which the Foreign Affairs Security Training Center 
(FASTC) and Federal Law Enforcement Training Centers (FLETC) proposals 
meet these requirements and (2) the estimated capital and recurring 
costs of these proposals and the extent to which the capital cost 
estimates conform to leading practices for reliable cost estimates.\1\ 
Thus our work for this report did not include an assessment of whether 
a cost-benefit analysis or request for proposal (RFP) was necessary for 
this project or for government construction projects in general.

    Question 2. According to your report, the State Department did not 
provide key information to DHS as FLETC prepared its cost estimates, 
schedules, and plans. For example, FLETC was not given State 
Department's reduced-scope plan, and they were not provided information 
about State's capstone exercises. Given these assertions, how direct 
was the comparison between these two agencies' proposals? Do we have an 
apples-to-apples comparison here? How do we get that? What information 
is missing from each of the proposals?

    Answer. Our assessment compared each agency's process for 
developing the cost estimate to the best practices identified in the 
GAO Cost Estimating and Assessment Guide.\2\ These best practices are 
12 steps in a high-quality cost estimating process that, if followed, 
will result in a reliable cost estimate. We did not compare the 
estimates to each other. See encl. V of our September 2015 report for a 
detailed discussion of our analysis, including our assessment of the 
extent which each proposal met each best practice for developing 
reliable cost estimates.
    In our September 2015 report, we noted the limitations that FLETC 
faced in developing its proposal in several places. For example, our 
report states that FLETC officials noted that they relied on 
information provided by State, which, they said, was incomplete, and 
that they had only 60 days to refine their capital cost estimate. FLETC 
officials also noted that they were not provided DS's reduced-scope 
plan that would have allowed FLETC to revise its cost estimate, 
schedule, and plans. Specifically, in testimony before your committee, 
the Director of FLETC stated that at the time FLETC prepared its 
proposal, it did not know about DS's capstone training exercise. As a 
result, she said FLETC would have to reassess what training would need 
to be done where, in order to incorporate the use of Townsend Bombing 
Range into its proposal. Finally, FLETC officials said that they took 
no further action on this project after the administration selected the 
Fort Pickett option in April 2014. State and GSA continued to refine 
the FASTC cost estimate following their proposal to OMB.
    As a result, it would be impractical to reconcile the differences 
in requirements and costs between the two proposals at this date. 
State's current development of a cost-benefit analysis comparing FASTC, 
FLETC, and current operations may, if done according to best practices, 
provide an apples-to-apples comparison among alternatives.

    Question 3. We have heard repeatedly that State did not provide 
information requested related to its Master Plan and de-scoped plan for 
FASTC. Can you comment on State's willingness to provide information? 
How did that complicate your analysis?

    Answer. As we indicated in our report, we found that State did not 
provide all of the relevant information regarding its training 
requirements and cost data to OMB or FLETC. For example, FLETC 
officials said that they did not have complete information regarding 
the reduced-scope plan for FASTC and were unable to develop a 
comparable cost estimate. In addition, FLETC officials told us that 
they did not receive information from State about State's advanced 
training capstone exercises, which span multiple days and involve 
several different venues.
    However, State fully complied with all of our requests for 
information and data for our review. State also accommodated all of our 
requests to visit existing training facilities and the proposed site of 
FASTC at Fort Pickett. We also observed DS's High Threat Operations 
Course Capstone exercise, at DS's invitation. We obtained updated data 
on requirements and costs from State that neither FLETC nor OMB had, 
and the analysis for our September 2015 report included events through 
June 2015.
    FLETC also was fully cooperative with all of our requests for 
information throughout the course of our review. In addition, FLETC was 
very flexible in accommodating our visit to their Glynco campus.

    Question 4. How did you test DS's identified ``training 
requirements''? The GAO report suggests that Diplomatic Security (DS) 
has concerns that the FLETC explosives training environment would be 
inadequate.

    Answer. For our September 2015 report, we developed a list of four 
site requirements by compiling material from multiple sources, 
including State's 2012 master plan for FASTC and the 2014 update; the 
master and supplemental program of requirements for FASTC; the draft, 
supplemental, and final environmental impact statements for FASTC from 
2012 and 2015; the 2008 and 2015 reports to Congress from State; the 
Benghazi Accountability Review Board report; the 2013 State report from 
the Independent Panel on Best Practices; and the 2013 State Report on 
Diplomatic Security Organization and Management. We also interviewed 
officials from State; FLETC; GSA; OMB; and several training partners 
identified by DS, including the Marine Security Guards, Naval Special 
Warfare Command, Third Special Forces Group, U.S. Secret Service, 
Federal Bureau of Investigation, and Central Intelligence Agency.
    Based on the information we gathered and analyzed, we compiled a 
list of site requirements for DS's training center and discussed the 
rationale for these requirements with DS, FLETC, and other agency 
officials. We observed training exercises to understand the need for 
some of the requirements identified by DS, such as venue consolidation 
and availability of training facilities 24 hours a day. Based on these 
discussions and observations, we focused on four site requirements that 
our analysis indicated were critical to the provision of basic and 
advanced DS training courses--consolidation of venues; proximity to 
Washington, DC; exclusive use; and 24/7 availability.
    While we assessed the need for these site requirements to 
accommodate DS's existing and planned training, we did not assess 
whether specific DS training courses are necessary to accomplish DS's 
mission of providing a safe and secure environment for the conduct of 
U.S. foreign policy. We did confirm, however, that DS currently 
conducts and plans to continue to conduct training that includes 
elements such as nighttime training, long-range firearms, and heavy 
explosives. We identified the number of courses and students that use 
these elements, as well as the projected number of such courses at the 
future training center. We observed a training exercise that involved 
several of these elements. We also asked DS officials to explain why 
the elements were necessary and, to the extent possible, reviewed 
actual examples of incidents overseas that supported DS's identified 
need for specific training elements. In addition, in 2011 we reported 
that DS has a process in place to identify its training needs, a 
process that was reviewed and accredited by the independent Federal Law 
Enforcement Training Accreditation.\3\ This process involved division 
chiefs, branch chiefs, subject matter experts, and DS instructional 
staff and uses a seven-phased industry-recognized training framework 
for course design and development. Among these seven phases are two 
directly related to identifying and validating training needs--the 
analysis and design phase:

  <bullet> Analysis phase: In this phase, DS staff examines the 
        audience, identifies job tasks and job performance measures, 
        selects the instructional setting, and validates cost 
        estimates. A task list is developed to guide initial course 
        development, which involves subject matter experts in verifying 
        the job tasks.
  <bullet> Design phase: In this phase, DS staff determines the 
        training objectives, lists course prerequisites, identifies 
        needed learning objectives, and establishes the appropriate 
        performance tests.

    Our response to question 5 below has more details about State's 
requirements for explosives training.

    Question 5. Please describe the types of explosive training that DS 
requires, why such training is necessary, and why DS believes it must 
be conducted in a consolidated facility? How do Diplomatic Security's 
explosives training requirements compare with other agencies' training? 
From what I understand, ATF agents, as well as 94 other partner 
agencies, are only exposed to up to 3 pound blasts, and yet DS has 
called for 5 pound blasts. Does this seem justified to GAO?

    Answer. More than 15 DS courses include explosives, such as Foreign 
Affairs Counter Threat (FACT), Basic Special Agent Course, High Threat 
Operations, and Explosive Incident Countermeasures. In fiscal years 
2013 through 2015, DS provided more than 500 of these courses to over 
11,500 students, according to data provided by State.\4\ Although most 
DS students may not need to use a venue capable of handling large 
explosives (such as those up to 5 lbs.), DS plans to use this facility 
to train foreign personnel, such as bomb squads, in explosive incident 
countermeasures and post-blast investigations through the Antiterrorism 
Assistance (ATA) Program. Data provided by State indicate that nearly 
1,900 students received training that included explosives through ATA 
from fiscal years 2013 through 2015.\5\ According to DS, it trains on 
larger explosives in part because its teams have encountered much 
larger explosive devices in the field, such as a complex attack against 
the U.S. consulate in Herat, Afghanistan in September 2013, using 
truck- and vehicle-borne improvised explosive devices and seven 
insurgents equipped with small arms, rocket-propelled grenades, and 
suicide vests.
    In addition, State officials expressed concern that FLETC's 
existing blast pad could not accommodate the increased number of DS 
students. For example, DS projects that, in fiscal year 2018, nearly 
6,500 students per year will take the Foreign Affairs Counter Threat 
(FACT) course, which includes 2 hours of specialized training on 
explosives, ranging from 0.05 lb. to 0.5 lb.
    We identified consolidation of venues as one of the key site 
requirements critical to providing DS training based on several 
factors. In 2008, State reported to Congress on the need for 
consolidating all DS training in one location. In 2011, we reported 
that DS officials estimated that in 8 weeks of training almost 1 week 
was spent in travel between and among the training sites.\6\ Further, 
the Management Review Panel and the Best Practices Panel, both 
established as a result of recommendations made by the Benghazi 
Accountability Review report, strongly endorsed State's efforts to 
consolidate its training venues. In addition, DS has emphasized the 
need to have various training venues close to one another so exercises 
can move from one venue to the next without stopping. For example, we 
observed a capstone exercise at the conclusion of a High Threat 
Operations Course that took place over 80 consecutive hours, during 
which students were harassed by sniper fire, forced to contend with 
transporting and caring for wounded comrades, and compelled to evacuate 
under hostile fire. This exercise also involved a complex attack on a 
mock consulate that included several explosions and gunfire.

    Question 6. Reoccurring operating costs in your report for FLETC 
were estimated as 3 percent of capital costs. FLETC, however, currently 
operates for less than this amount. Can you explain why this was not 
considered in the report?

    Answer. Our estimate of recurring operations and maintenance (O&M) 
costs for FLETC did not assume a flat rate of 3 percent. For these 
costs, we used data provided by FLETC as part of its November 2013 
response to OMB. These data included venue-specific O&M costs that, in 
some cases, were less than 3 percent of capital costs. FLETC estimated 
the annual O&M cost of facilities to meet FASTC's reduced scope to be 
$7.1 million--or about 2.9 percent of FLETC's reduced-scope capital 
cost estimate of $243 million. In our calculations of FLETC's O&M 
costs, we used this number, phased in over 4 years and inflated by 1.9 
percent per year--the same assumptions made by FLETC.
    For FASTC, we estimated recurring O&M costs to be 3 percent of 
capital costs per year, consistent with industry standards and the same 
assumption used by OMB to facilitate a consistent analysis of the FASTC 
and FLETC options.
    As part of our quality assurance process, we discussed our initial 
findings with State, GSA, and FLETC, and provided these agencies with a 
draft of our report for comment. None of these agencies expressed 
concern about the assumptions we made in calculating recurring O&M 
costs.

----------------
End Notes

    \1\ GAO, Diplomatic Security: Options for Locating a Consolidated 
Training Facility, GAO-15-808R (Washington, DC: Sept. 9, 2015).
    \2\ GAO, GAO Cost Estimating and Assessment Guide: Best Practices 
for Developing and Managing Capital Program Costs, GAO-09-3SP 
(Washington, DC: March 2009).
    \3\ GAO, Diplomatic Security: Expanded Missions and Inadequate 
Facilities Pose Critical Challenges to Training Efforts, GAO-11-460 
(Washington, DC: June 1, 2011).
    \4\ These figures include actual courses through May 31, 2015, and 
planned courses from June 1, 2015, to September 30, 2015.
    \5\ Ibid.
    \6\ GAO-11-460.
                                 ______
                                 

  Responses of Michael Courts to Questions Submitted by Senator David 
            Perdue on Behalf of Representative Buddy Carter

    Below are two questions for the record that Senator Perdue 
submitted to GAO on behalf of Representative Buddy Carter of Georgia. 
Because of the similarity to two of Senator Perdue's questions, our 
responses below refer to answers to Senator Perdue's questions above.

    Question 1. Director Courts, in your report you note that while the 
State Department had since 2008 to conduct its assessment while FLETC 
was only given 60 days. That is the equivalent of giving one student a 
day to complete an assignment while giving another 36 days. Is it 
really reasonable to judge the two assessments on the same scale?

    Answer. As we noted in our response to Question 2 from Senator 
Perdue above, our assessment compared each agency's process for 
developing the cost estimate to the best practices identified in the 
GAO Cost Estimating and Assessment Guide.\7\ These best practices are 
12 steps in a high-quality cost estimating process that, if followed, 
will result in a reliable cost estimate. We did not compare the 
estimates to each other. See encl. V of our September 2015 report for a 
detailed discussion of our analysis, including our assessment of the 
extent which each proposal met each best practice for developing 
reliable cost estimates.
    In our September 2015 report, we noted the limitations that FLETC 
faced in developing its proposal in several places. For example, our 
report states that FLETC officials noted that they relied on 
information provided by State, which, they said, was incomplete, and 
that they had only 60 days to refine their capital cost estimate. FLETC 
officials also noted that they were not provided DS's reduced-scope 
plan that would have allowed FLETC to revise its cost estimate, 
schedule, and plans. Specifically, in testimony before your committee, 
the Director of FLETC stated that at the time FLETC prepared its 
proposal, it did not know about DS's capstone training exercise. As a 
result, she said FLETC would have to reassess what training would need 
to be done where, in order to incorporate the use of Townsend Bombing 
Range into its proposal. Finally, FLETC officials said that they took 
no further action on this project after the administration selected the 
Fort Pickett option in April 2014. State and GSA continued to refine 
the FASTC cost estimate following their proposal to OMB.
    As a result, it would be impractical to reconcile the differences 
in requirements and costs between the two proposals at this date.

    Question 2. Director Courts, by your report's own admission, you 
``did not assess whether the training elements identified by 
[Diplomatic Security] were necessary for DS to accomplish its 
mission.'' If you cannot certify that the training elements identified 
are sufficient to meet the needs of DS, how can you be confident that 
your analysis is accurate?
    As we noted in our response to Question 4 from Senator Perdue 
above, we developed a list of four site requirements by compiling 
material from multiple sources, including State's 2012 master plan for 
FASTC and the 2014 update; the master and supplemental program of 
requirements for FASTC; the draft, supplemental, and final 
environmental impact statements for FASTC from 2012 and 2015; the 2008 
and 2015 reports to Congress from State; the Benghazi Accountability 
Review Board report; the 2013 State report from the Independent Panel 
on Best Practices; and the 2013 State Report on Diplomatic Security 
Organization and Management. We also interviewed officials from State; 
FLETC; GSA; OMB; and several training partners identified by DS, 
including the Marine Security Guards, Naval Special Warfare Command, 
Third Special Forces Group, U.S. Secret Service, Federal Bureau of 
Investigation, and Central Intelligence Agency.
    Based on the information we gathered and analyzed, we compiled a 
list of site requirements for DS's training center and discussed the 
rationale for these requirements with DS, FLETC, and other agency 
officials. We observed training exercises to understand the need for 
some of the requirements identified by DS, such as venue consolidation 
and availability of training facilities 24 hours a day. Based on these 
discussions and observations, we focused on four site requirements that 
our analysis indicated were critical to the provision of basic and 
advanced DS training courses--consolidation of venues; proximity to 
Washington, DC; exclusive use; and 24/7 availability.
    While we assessed the need for these site requirements to 
accommodate DS's existing and planned training, we did not assess 
whether specific DS training courses are necessary to accomplish DS's 
mission of providing a safe and secure environment for the conduct of 
U.S. foreign policy. We did confirm, however, that DS currently 
conducts and plans to continue to conduct training that includes 
elements such as nighttime training, long-range firearms, and heavy 
explosives. We identified the number of courses and students that use 
these elements, as well as the projected number of such courses at the 
future training center. We observed a training exercise that involved 
several of these elements. We also asked DS officials to explain why 
the elements were necessary and, to the extent possible, reviewed 
actual examples of incidents overseas that supported DS's identified 
need for specific training elements. In addition, in 2011 we reported 
that DS has a process in place to identify its training needs, a 
process that was reviewed and accredited by the independent Federal Law 
Enforcement Training Accreditation.\8\ This process involved division 
chiefs, branch chiefs, subject matter experts, and DS instructional 
staff and uses a seven-phased industry-recognized training framework 
for course design and development. Among these seven phases are two 
directly related to identifying and validating training needs--the 
analysis and design phase:

  <bullet> Analysis phase: In this phase, DS staff examines the 
        audience, identifies job tasks and job performance measures, 
        selects the instructional setting, and validates cost 
        estimates. A task list is developed to guide initial course 
        development, which involves subject matter experts in verifying 
        the job tasks.
  <bullet> Design phase: In this phase, DS staff determines the 
        training objectives, lists course prerequisites, identifies 
        needed learning objectives, and establishes the appropriate 
        performance tests.

----------------
End Notes

    \7\ GAO, GAO Cost Estimating and Assessment Guide: Best Practices 
for Developing and Managing Capital Program Costs, GAO-09-3SP 
(Washington, DC: March 2009).
    \8\ GAO, Diplomatic Security: Expanded Missions and Inadequate 
Facilities Pose Critical Challenges to Training Efforts, GAO-11-460 
(Washington, DC: June 1, 2011).
                                 ______
                                 

               Responses of Michael Courts to Questions 
                     Submitted by Senator Tim Kaine

    Question 1. 1. What did you find in reviewing OMB's preliminary 
analysis in 2013 regarding the FASTC and FLETC proposals and speaking 
with OMB officials? Was this analysis based on complete information? Do 
you find this analysis credible at this point in time?

    Answer. As our September 2015 report notes, we reviewed OMB's 
preliminary documentation analyzing the FASTC and FLETC proposals and 
spoke with OMB officials about this analysis. OMB officials indicated 
that in July 2013 OMB prepared a template for cost analysis populated 
with any available preliminary numbers, which it provided to both State 
and FLETC to facilitate a discussion between those agencies. State 
provided cost estimates for 1 year. FLETC provided estimates for 10 
years, but because FLETC did not have complete information regarding 
DS's requirements, FLETC's estimate did not account for all of these 
requirements. Therefore, OMB's analysis in the fall of 2013 was based 
on incomplete information and did not take into account subsequent 
events. For example, project timing was one area in which OMB's 
preliminary analysis determined that FLETC held an advantage over 
FASTC, partly because State and GSA would have to prepare an 
environmental impact statement (EIS) for FASTC while FLETC would not. 
However, since the completion of OMB's analysis in 2014, State and GSA 
completed the EIS and obligated funds for FASTC, reducing the remaining 
amount of time needed to complete the project. We obtained updated data 
on requirements and costs from State, and our analysis included events 
through the June 2015 award of a contract for the first phase of 
construction for FASTC.
    Furthermore, FLETC officials indicated that its proposal to OMB was 
based on incomplete information about State's reduced-scope plan for 
FASTC. FLETC did not incorporate plans for matching State's reduced-
scope plan in FLETC's proposal to OMB. Because FLETC was informed that 
the administration had reaffirmed the selection of Fort Pickett for 
FASTC in April 2014, FLETC did not update its initial proposal or cost 
estimates.

    Question 2. If you combine the unreliable and reliable cost 
estimates you received from both FASTC and FLETC, which facility is 
most cost effective?

    Answer. In our September 2015 report, we found that neither the 
FASTC nor the FLETC capital cost estimates fully met best practices 
outlined in GAO's Cost Estimating and Assessment Guide,\9\ and that, 
therefore, any projections based on these figures may be unreliable. We 
did not combine these figures with our own estimates of the costs 
associated with solely sending students to each location, which were 
reliable, because doing so may result in unreliable projections. 
Without reliable projections of capital costs, we are unable to 
determine which facility is more cost effective.

----------------
End Note

    \9\ 11GAO-09-3SP.
                                 ______
                                 

          Letter Submitted for the Record by Senator Tim Kaine
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

        Letter Submitted for the Record by Senator David Perdue
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                  [all]
</pre></body></html>
